APPENDIX

APPENDIX A: OPINION OF THE U.S. COURT OF
APPEALS FOR THE SECOND CIRCUIT .................... 1A
APPENDIX B: ORDER DENYING REHEARING ............. 20A
APPENDIX C: DISTRICT COURT ORDER DENYING
REHEARING ....................................................... 22A
APPENDIX D: DISTRICT COURT ORDER GRANTING
SUMMARY JUDGMENT ....................................... 28A
APPENDIX E: RELEVANT STATUTORY PROVISIONS .... 92A
17 U.S.C. § 401. Notice of copyright:
Visually perceptible copies .......................92A
17 U.S.C. § 402. Notice of copyright:
Phonorecords of sound recordings ...........94A
17 U.S.C. § 1202. Integrity of copyright
management information...……………………96A

1A
APPENDIX A:
OPINION OF THE U.S. COURT OF APPEALS
FOR THE SECOND CIRCUIT
18-2955-cv, 18-2959-cv
James H. Fischer v. Sandra F. Forrest, et al.
IN THE
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
August Term 2019
Nos. 18-2955-cv, 18-2959-cv
JAMES H. FISCHER
Plaintiff-Appellant,
v.
SANDRA F. FORREST, SHANE R. GEBAUER,
BRUSHY MOUNTAIN BEE FARM, INC.,
STEPHEN T. FORREST, JR.,
Defendants-Appellees.
Appeal from the United States District Court
for the Southern District of New York
No. 14 Civ. 01304 (PAE-AJP),
Paul A. Engelmayer, District Judge, Presiding.
(Argued: December 12, 2019;
Decided: August 4, 2020)
Before: PARKER AND CHIN, Circuit Judges, AND
COTE, District Judge.1
1

Judge Denise Cote, of the United States District Court for the
Southern District of New York, sitting by designation.

2A
Appeal from a judgment of the United States District
Court for the Southern District of New York
(Engelmayer, J.) dismissing claims under the
Copyright Act, 17 U.S.C. § 101 et seq. and the Digital
Millennium Copyright Act, 17 U.S.C. § 1201 et seq.
AFFIRMED.

GREGORY KEENAN (Andrew Grimm,
on the brief), Digital Justice Foundation,
Floral Park, NY, for Plaintiff-Appellant.
DANIEL K. CAHN (Seth L. Hudson,
Clements Bernard Walker, Charlotte, NC,
on the brief), Law Offices of Cahn & Cahn,
Melville, NY, for Defendants-Appellees.

BARRINGTON D. PARKER, Circuit Judge:
James H. Fischer appeals from a judgment of the
United States District Court for the Southern District
of New York (Engelmayer, J.). The district court
granted summary judgment in favor of the
Defendants-Appellees,
Sandra
Forrest, Shane
Gebauer, Stephen Forrest, Jr., and Brushy Mountain
Bee Farm (“Brushy Mountain”) on Fischer’s claims of
copyright infringement and copyright management
information (“CMI”) removal. The controversy
underlying this litigation arose from the promotion by
the Forrests of their own version of a honey harvesting
product. The new product replaced one Fischer had

3A
invented and that the Forrests had sold for many
years through the website and catalogue of Brushy
Mountain, a company the Forrests owned. Judge
Engelmayer concluded that Fischer was not entitled
to statutory damages or attorneys’ fees, the relief he
sought on his copyright infringement claim, because
the first allegedly infringing act occurred before the
work was registered. See 17 U.S.C. § 412. The district
court also concluded that Fischer failed to establish a
CMI removal claim under the Digital Millennium
Copyright Act (“DMCA”), 17 U.S.C. § 1201 et seq. We
agree and accordingly, we affirm the judgment of the
district court.
BACKGROUND
Fischer is an apiarist who developed a product
known as Fischer’s Bee-Quick in 1999. Fischer’s BeeQuick is a “honey harvesting aid” that is used to clear
bees from the superstructures placed on beehives
where bees store honey. Bee-Quick is sprayed on a
fume board, which is placed on the superstructures.
The scent causes the bees to exit the structure, at
which point the honey can be harvested. Bee-Quick
was distinguished from the products of Fischer's
competitors because it was non-toxic and did not have
the offensive odor associated with other honey
harvesting aids.

4A
Brushy Mountain was a mail-order business
specializing in bee-keeping supplies. It was owned and
operated during the relevant period by Sandra and
Stephen Forrest and Shane Gebauer, its President.
Brushy Mountain circulated a catalogue of products
well-known in bee-keeping circles, featuring pictures
and advertisements.
Brushy Mountain began featuring Fischer’s BeeQuick in its catalogue in 2002 and described it as
follows:
This 100% Natural, non-toxic blend of
oils and herb extracts works just like
Bee Go and it smells good! Fischer’s
Bee Quick is a safe, gentle, and
pleasant way to harvest your honey.
Are you tired of your spouse making
you sleep in the garage after using Bee
Go? Are you tired of using a hazardous
product on the bees you love? Then this
is the product for you! J. App’x at 1JA267.
Fischer sold Bee-Quick on his own website, BeeQuick.com, starting around 2000 and he continued to
do so during the years it also was available from
Brushy Mountain. The description of Bee-Quick in
Fischer’s brochure, which was featured on the BeeQuick.com website, included the following phrases:

5A
1. Are you tired of your spouse making
you sleep in the garage after using
Butyric Anhydride?
2. Are you tired of using hazardous
products on the bees you love?
3. Fischer’s Bee-Quick is a safe, gentle,
and pleasant way to harvest your
honey.
4. A Natural, Non-Toxic Blend of Oils
and Herbal Extracts. J. App’x at 1JA169.
Around 2010, Brushy Mountain claimed that
Fischer’s supply of Bee-Quick was unreliable and
decided to stop offering it in its catalogue. In its place,
Brushy Mountain started selling its own honey
harvesting aid called Natural Honey Harvester.
Brushy Mountain’s January 2011 catalogue described
its new product as follows:
For years we have promoted the use
of a natural product to harvest honey
but an unreliable supply of such a
product has forced us to come out
with our own. This 100% Natural,
non-toxic blend of oils and herb
extracts works just like Bee Go and it
smells
good!
Natural
Honey
Harvester is a safe, gentle, and
pleasant way to harvest your honey.

6A
Are you tired of your spouse making
you sleep in the garage after using
Bee Go? Are you tired of using
hazardous products on the bees you
love? Then this is the product for you!
J. App’x at 1JA-160.
This text remained in the catalogue largely unchanged
through 2014 and was featured on the Brushy
Mountain website through 2011.
The similarities between the two descriptions are
the basis for Fischer’s claims. He contends that
Brushy Mountain simply replaced “Fischer’s BeeQuick” with “Natural Honey Harvester” in their
advertisements, and that this substitution constitutes
copyright infringement and the unlawful removal of
CMI. See 17 U.S.C. §§ 504, 1202.
After Fischer initiated this action, initially as a pro
se litigant, the parties engaged in extensive motion
practice.2 The claims that were not dismissed
The Forrests moved to dismiss Fischer’s initial and amended
complaints in July 2014, and those motions were denied in
January 2015. Fischer then obtained counsel and filed a Third
Amended Complaint in December 2015, adding Shane Gebauer
and Brushy Mountain as defendants. Pretrial management was
referred to Magistrate Judge Andrew J. Peck. Magistrate Judge
Peck, in a thorough and thoughtful January 2017 Report &
Recommendation, recommended that the district court dismiss
Fischer’s trademark counterfeiting and New York right of
2

7A
proceeded through discovery, and eventually the
Defendants-Appellees moved for summary judgment
on the remaining claims. Magistrate Judge Andrew J.
Peck, who was managing the pretrial activity,
recommended granting the motion in its entirety in a
July 2017 Report & Recommendation. The district
court adopted that Report & Recommendation in full
in a February 2018 order and opinion. The district
court held that § 412 of the Copyright Act barred the
recovery of statutory damages for copyright
infringement because the alleged infringement
predated the copyright registration. See 17 U.S.C. §
412. The district court also held that Fischer failed to
establish a violation of the DMCA because the changes
that Brushy Mountain had made to its catalogue did
not constitute removal of CMI. This appeal followed.
STANDARD OF REVIEW
We review a grant of summary judgment de novo,
“resolving all ambiguities and drawing all permissible
factual inferences in favor of the party against whom
summary judgment is sought.” FTC v. Moses, 913 F.3d

publicity claims, but deny the Forrests’ motion to dismiss all
other claims. Judge Engelmayer adopted the Report &
Recommendation in a March 21, 2017 order and opinion.

8A
297, 305 (2d Cir. 2019).3 A “court shall grant summary
judgment if the movant shows that there is no genuine
dispute as to any material fact and the movant is
entitled to judgment as a matter of law.” Fed. R. Civ.
P. 56(a); see also Alabama v. North Carolina, 560 U.S.
330, 344 (2010) (quoting Celotex Corp. v. Catrett, 477
U.S. 317, 322 (1986)).
DISCUSSION
I.
The Copyright Office registered Fischer’s copyright
for the Bee-Quick.com website, which includes the
Bee-Quick brochure, on February 7, 2011.4 We assume
Unless otherwise indicated, in quoting cases, all internal
quotation marks, alterations, emphases, footnotes, and citations
are omitted.
3

4 In February 2011, Fischer filed a copyright registration
application for the text and image files of the Bee-Quick.com
website. Fischer mistakenly included thousands of irrelevant
documents in his application, and after the Copyright Office
detected this error, he submitted a second and then third set of
files on September 23 and September 24, 2011 respectively. The
Defendants-Appellees disputed below that Fischer’s Bee-Quick
brochure was included in the initial February submission, but
Fischer maintains that the second and third submissions were
subsets of the files submitted in February. The Copyright Office
issued Fischer a copyright registration dated September 24,
2011, the date of his third, corrected submission. The date of the
registration was changed to February 7, 2011, the date of his first
submission, after he contacted the Copyright Office to clarify that

9A

Fischer’s website and the text contained in it are
copyrightable creative works and the registration for
the website is valid.
As noted, Fischer has elected to pursue statutory
damages. A copyright infringer can be held liable for
either actual damages and profits obtained or for
statutory damages. 17 U.S.C. § 504(a). However, § 412
precludes statutory damages or attorneys’ fees for
“any infringement of copyright in an unpublished
work commenced before the effective date of its
registration” or “any infringement of copyright
commenced after first publication of the work and
before the effective date of its registration.” 17 U.S.C.
§ 412. The Defendants-Appellees argue that § 412 bars
statutory damages because the first allegedly
infringing act occurred prior to February 7, 2011, the
registration date of the copyright.
Fischer, on the other hand, argues that § 412 does
not apply because there were no pre-registration
infringements by the Defendants-Appellees. There are
a host of problems with this contention. First,
Fischer’s pleadings repeatedly referred to the pre-

everything that was in the later submissions was in the first
submission.

10A
registration use of the advertising text in the Brushy
Mountain catalogue as infringements. For example, in
the Third Amended Complaint (the operative
complaint) Fischer alleged that “permission to use
Plaintiff’s intellectual property in any way had been
revoked, as no permission was granted to use
Plaintiff’s copyrighted works in any way except
specifically in the sales of [Bee-Quick].” Third Am.
Compl. ¶ 26; 14 Civ. 1307, Dkt. No. 111. Fischer also
alleged that the Defendants-Appellees “no longer had
any of Plaintiff’s product to sell” as of March 2010 and,
consequently, at that point their use of the advertising
text constituted infringement. Id. Fischer repeated
this allegation of infringement with respect to a
December 10, 2010 email from Brushy Mountain
informing him that it would be discontinuing BeeQuick. Fischer alleged that “[a]t that point,
Defendants immediately lost any right, license, or
permission to use any of Plaintiff’s intellectual
property.” Id. at ¶¶ 46-47. Moreover, the allegedly
infringing advertisement for Natural Honey
Harvester was in the Brushy Mountain catalogue
mailed on January 21, 2011 and the allegedly
infringing use of the Bee-Quick advertising text was
on the Brushy Mountain website as early as December
26, 2010.
Faced with these obstacles to statutory damages,
Fischer’s position shifted. He now argues that the

11A
Defendants-Appellees’ actions prior to his registration
of the copyright are not infringements because they
had a license to use his advertising material. Although
Fischer posits the existence of a license, he has failed
to adduce admissible evidence of its existence, much
less evidence as to its scope, terms, or the dates of its
creation or revocation.
In addition to being inconsistent with Fischer’s
pleadings, this argument was raised for the first time
in his objections to the Magistrate Judge’s July 2017
Report. Judge Engelmayer correctly declined to allow
Fischer to make an about-face in those objections to
advance a theory of liability that contradicted his
pleadings and had not been raised during summary
judgement proceedings before the Magistrate Judge.
See Pan Am. World Airways, Inc. v. Int’l Bhd. of
Teamsters, 894 F.2d 36, 40 n. 3 (2d Cir. 1990). We see
no abuse of discretion.
Even were we to consider Fischer’s new theory of
liability at this late date, it would not save his claim
for statutory damages. Fischer first contends that the
Defendants-Appellees had a license to use Fischer’s
material and that the date on which that license was
rescinded presents an unresolved factual issue. As
noted, he has not adduced evidence sufficient to create
a genuine issue of material fact as to the existence of
any such license.

12A
Fischer’s other contention is that a factual issue
exists as to when the first allegedly infringing act
occurred. In support of this contention, Fischer claims
that the date the first customers received Brushy
Mountain’s January 2011 catalogue—the first
catalogue to offer Natural Honey Harvester with the
allegedly infringing text—must be assumed to postdate his February 7, 2011 copyright registration. He
fails to offer anything but speculation in support of
this argument. For example, he points this Court to an
order form that specified a January 21, 2011 shipping
date, the authenticity of which Fischer does not
contest. That date is consistent with unrefuted
testimony below that established the catalogues
containing the allegedly infringing material were
mailed on January 21, 2011, well before the decisive
registration date. Confronted with these facts, Fischer
was obligated to come forth with admissible evidence
creating a genuine issue of material fact as to the date
of mailing. Fischer failed to do so. He points to a
reference on the order form that indicated that the
catalogues were initially marked for shipment on
January 24, 2011 and argues that a fourteen-day
shipment window would result in customers’ receipt of
the catalogue after the February 7 registration. This
reference does nothing to help Fischer. The document
simply says that the catalogues were planned to be
shipped on January 24 but were, in fact, shipped on

13A
January 21.5 Speculations such as these are not an
appropriate substitute for admissible evidence. As we
have noted, “mere conclusory allegations, speculation
or conjecture will not avail a party resisting summary
judgment.” Cifarelli v. Village of Babylon, 93 F.3d 47,
51 (2d Cir. 1996). For these reasons, we must conclude
that the first allegedly infringing act occurred before
the date of the copyright registration and no genuine
issue of material fact exists concerning this issue.
Consequently, § 412 bars Fischer’s recovery of
statutory damages.
In fact, Fischer cites no authority for the proposition that the
relevant date for the first alleged act of infringement is the date
of receipt of the catalogue by the customers. The relevant statute
states that “[t]he offering to distribute copies or phonorecords to
a group of persons for purposes of further distribution, public
performance, or public display constitutes publication.” 17 U.S.C.
§ 101. Even on Fischer’s account, the catalogues were printed and
shipped prior to his registration of the copyright.
5

Fischer argues that, even if this Court finds that statutory
damages are precluded pursuant to § 412, this Court should
afford him declaratory relief. Fischer bases this claim on the
Defendants-Appellees’ stipulation at oral argument on the
summary judgment motion that they would (1) remove any links
and photos containing Fischer's name or product on Brushy
Mountain's website, and (2) not use the four advertising phrases
again in the future. At the time, Fischer agreed that this mooted
his request for injunctive relief. However, on appeal, Fischer
claims that the Defendants-Appellees’ stipulation is “functionally
a consent decree” and that this Court should grant declaratory
judgment on the basis of the stipulation. He offers no support for
6

14A
III.
Fischer next argues that the Defendants-Appellees
violated the DMCA when they removed “Fischer’s
Bee-Quick” from the advertising copy on the Brushy
Mountain website. See 17 U.S.C. § 1202. The DMCA
was passed in 1998 to implement two international
treaties resulting from the 1996 World Intellectual
Property Organization (“WIPO”) Convention. S. Rep.
105-190 at 1-2 (1998); see also 144 Cong. Rec. S205-02
(1998) (statement of Sen. Leahy). Congress’s intent in
enacting the DMCA was to update the copyright laws
of the United States for the “digital age.” Viacom Int’l,
Inc. v. YouTube, Inc., 676 F.3d 19, 26 (2d Cir. 2012).
Generally speaking, the two major aims of the DMCA
are (1) anti-circumvention of access controls, codified
at 17 U.S.C. § 1201 et seq., and (2) creating a safe
harbor for service providers when their users or other
third parties engage in infringing activities, codified
at 17 U.S.C. § 512. “At its passage, the Digital
Millennium Copyright Act contemplated a new world,
untested in prior court decisions.” 4 Melville B.
Nimmer and David Nimmer, Nimmer on Copyright §
12A.06[C] (Matthew Bender, Rev. Ed.) (2020).
that contention. Moreover, Fischer did not seek declaratory relief
below. The stipulation did not concede that the text at issue was
Fischer’s copyrighted work nor did it concede that the
Defendants-Appellees’ use of the text was an infringement.

15A
This appeal focuses on the anti-circumvention
component of the DMCA, and specifically on the
definition of CMI in § 1202(c). Section 1202 was
“required by both WIPO Treaties to ensure the
integrity of the electronic marketplace by preventing
fraud and misinformation.” H.R. Rep. 105-551(I) at 10
(1998); see also S. Rep. 105-190 (1998). Section 1202
realizes this aim by “prohibit[ing] intentionally
providing false copyright management information . .
. with the intent to induce, enable, facilitate or conceal
infringement. It also prohibits the deliberate deleting
or altering [of] copyright management information.”
H.R. Rep. 105-551(I) at 10. The section is intended “to
protect consumers from misinformation as well as
authors and copyright owners from interference with
the private licensing process.” Id. at 10-11; see also
Nimmer § 12A.08[A]. While the DMCA establishes
certain protections for copyright holders in a digital
medium, it also establishes limitations on copyright
liability in the interest of promoting growth,
development, and innovation in the digital universe.
H.R. Rep. 105-551(I) at 11-12.
In broad strokes, § 1202(c) protects the “[i]ntegrity
of copyright management information” and prohibits
the removal of CMI from copyrighted works. See 17
U.S.C. § 1202(a)-(c). The statute describes CMI as
information such as the author, title, and other
identifying data about the copyright holder of the

16A
work. In relevant part, the term
management information” is defined as:

“copyright

any of the following information conveyed
in connection with copies . . . of a work . . .
or displays of a work, including in digital
form, except that such term does not
include
any
personally
identifying
information about a user of a work or of a
copy . . . or display of a work:
(1) The title and other information
identifying the work, including the
information set forth on a notice of
copyright.
(2) The name of, and other identifying
information about, the author of a
work.
(3) The name of, and other identifying
information about, the copyright
owner of the work, including the
information set forth in a notice of
copyright.
...
(6) Terms and conditions for use of
the work.
(7) Identifying numbers or symbols
referring to such information or links
to such information.

17A
(8) Such other information as the
Register of Copyrights may prescribe
by regulation, except that the Register
of Copyrights may not require the
provision
of
any
information
concerning the user of a copyrighted
work.
17 U.S.C. § 1202(c). To establish a violation of this
subsection, a litigant must show (1) the existence of
CMI on the allegedly infringed work, (2) the removal
or alteration of that information and (3) that the
removal was intentional. 17 U.S.C. § 1202(b).
Fischer alleges that his name is CMI and that by
deleting the phrase “Fischer’s Bee-Quick” and
replacing it with “Natural Honey Harvester,” the
Defendants-Appellees violated § 1202(c) by removing
his name from copyrighted material. This assertion
misunderstands what constitutes CMI.
While an author’s name can constitute CMI, not
every mention of the name does. Here, “Fischer’s” is
part of a product name; it is not a reference to “James
H. Fischer” as the owner of a copyrighted text. Nor is
the name “[t]he title and other information identifying
the work” or the “[t]he name of, and other identifying
information about, the author of the work” as required
by the statute. See 17 U.S.C. § 1202(c)(1)-(3). We grant
that Natural Honey Harvester was designed as a

18A
closely resembling alternative to Fischer’s Bee-Quick,
and that the advertising copy used on Brushy
Mountain’s website and catalogue for Natural Honey
Harvester mirrors the advertising copy that had been
used for Fischer’s Bee-Quick. However, what was
removed was not Fischer’s name as the copyright
holder of the advertising text, but “Fischer’s” insofar
as it was a part of the actual product’s name.
Judge Engelmayer provided an example to
illustrate the problem with Fischer’s approach:
Imagine that the back cover of the Ian
Fleming novel Dr. No. contained the
following
encomium:
“In
Ian
Fleming’s Dr. No, Fleming shows his
mastery of Cold War spycraft.”
Imagine then that a person lifted
language from that review to promote
a different thriller, writing: “In John
Le Carré’s Tinker, Tailor, Soldier,
Spy, Le Carré shows his mastery of
Cold War spycraft.” Whatever the
other legal implications of such
conduct might be, it is inconceivable
that a DMCA claim would lie from the
elimination of Fleming’s name. The
expression at issue does not connote
Fleming’s copyright ownership of
anything.

19A
Fischer v. Forrest, 286 F.Supp.3d 590, 611 (S.D.N.Y.
2018). Similarly, “Fischer’s Bee-Quick” used in
material published by a third party like Brushy
Mountain, which contains advertisements for dozens
of other products from many different suppliers,
cannot be reasonably construed as an identifier of the
copyright holder of the advertising text. In other
words, “Fischer’s” in “Fischer’s Bee-Quick” is not used
for ‘managing’ copyright information with respect to
the text at issue.
The name of an author can, of course, constitute
CMI when conveyed in connection with the relevant
copyrighted work. 17 U.S.C. § 1202(c). But “Fischer’s”
cannot be construed as CMI with respect to the
advertising text at issue because it is simply the name
of the product being described. In short: context
matters.
CONCLUSION
We have considered Fischer’s remaining
arguments and conclude they are without merit. The
judgment of the district court is AFFIRMED.

20A
APPENDIX B:
ORDER DENYING REHEARING
UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 15th day of October,
two thousand twenty.
James H. Fischer
Plaintiff – Appellant,
ORDER
v.

Docket No. 18-2955

Sandra F. Forrest, Shane R. Gebauer,
Brushy Mountain Bee Farm, Inc.,
Stephen T. Forrest, Jr.,
Defendants – Appellees.
Appellant, James H. Fischer, filed a petition for
panel rehearing, or, in the alternative, for rehearing
en banc. The panel that determined the appeal has
considered the request for panel rehearing, and the active members of the Court have considered the request
for rehearing en banc.

21A
IT IS HEREBY ORDERED that the petition is
denied.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
[SECOND CIRCUIT SEAL]

22A
APPENDIX C:
DISTRICT COURT ORDER DENYING REHEARING
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
JAMES H FISCHER,
Plaintiff,
-vSTEPHEN T. FORREST, SANDRA F. FORREST,
Defendants.
14 Civ. 1304 (PAE)
14 Civ. 1307 (PAE)
ORDER
PAUL A. ENGELMAYER, District Judge:
This order resolves the motion of plaintiff
James H. Fischer (“Fischer”), proceeding pro se, for reconsideration of the Court’s decision granting summary judgment to defendants. As explained below,
the Court denies that motion.
I.

Background

On February 16, 2018, this Court adopted the
Report and Recommendation of Magistrate Judge Andrew J. Peck, which recommended granting

23A
defendants Stephen T. Forrest and Sandra F. Forrest’s (the “Forrests”) motion for summary judgment.
See Dkt. 197 (“SJ Opinion”); Dkt. 184 (“R&R”). The
Court’s decision held that Fischer could not recover
statutory damages because the Forrests’ first infringing act predated Fischer’s copyright registration, SJ
Opinion at 14-19; the Court rejected Fischer’s attempt
to recast his complain to embrace an alternative theory of the case. See id. at 15-19. The Court also held
that defendants were not secondarily liable for the infringement of other vendors. Id. at 20-21. As to
Fischer’s claims under the Digital Millennium Copyright Act, the Court held that defendants had not removed copyright management information from an
original work of Fischer’s. Id. at 23-29. On Fischer’s
Lanham Act unfair competition claim, the Court held
that Fischer had failed to a show a likelihood of consumer confusion. Id. at 30-38. The same analysis interred Fischer’s claim for unfair competition under
New York law. Id. at 38. Finally, the Court held that
Fischer could not make out a claim for false advertising under the Lanham Act because, as to the defendants’ statements at issue, the evidence demonstrated
no literal or implied falsity. Id. at 39-41.
On March 16, 2018, Fischer, now proceeding
pro se, moved for reconsideration of the SJ Opinion.
Dkt. 202 (“Pl. Br.”). In support of that motion, Fischer
submitted a document styled as a “56(e)(1) Response.”
Dkt. 204 (“56.1 Response”).

24A
ON March 30, 2018, the Forrests filed a brief in
opposition to Fischer’s reconsideration motion, Dkt.
209 (“Def. Br.”) and a motion to strike Fischer’s 56.1
Response, Dkt.s 207, 208.
On April 22, 2018, Fischer filed a reply brief in
support of his motion for consideration, Dkt. 216 (“Pl
Reply Br.”), as well as a brief in opposition to defendants’ motion to strike, Dkt. 215.
On May 1, 2018, the Forrests filed a reply brief
in further support of their motion to strike. Dkt. 217.
II. Discussion
The Court denies Fischer’s motion for reconsideration. Rule 59(e) “allows a district court ‘to alter or
amend a judgment.’” ING Glob. V. United Parcel Serv.
Oasis Supply Corp., 757 F.3d 92, 96 (2d Cir. 2014)
(quoting Fed. R. Civ. P. 59(e)). To prevail on a request
for such relief, the moving party must demonstrate
“an intervening change of controlling law, the availability of new evidence, or the need to correct a clear
error or prevent manifest injustice.” Virgin Atl. Airways, Ltd. V. Nat’l Mediation Bd., 956 F.2d 1245, 1255
(2d Cir. 1992) (quoting 18 C. Wright, A. Miller & E.
Cooper, Federal Practice & Procedure § 4478 at 790).
In his briefs in support of his reconsideration
motion, Fischer advances a host of arguments attacking the Court’s SJ Opinion, Judge Peck’s Report and
Recommendation, and the Forrests’ counsel’s defense

25A
of this action. Taken together, those arguments do not
suffice to warrant reconsideration of the SJ opinion.
First, Fischer has not pointed to any change in
the applicable law. Rather, he argues that the Court
misapplied the governing standards. That is not a
proper basis for seeking reconsideration. In any event,
the Court stands by its rulings. Fischer’s recourse is
to appeal to the United States Court of Appeals for the
Second Circuit. To the extend that Fischer’s motion
for reconsideration relies on attempts to revise his allegations or his theory of the case to avoid the Court’s
ruling that he may not recover statutory damages,
such a recasting of his allegations is improper on a motion for reconsideration.
Second, Fischer has not identified any new evidence supporting his claim. Rather, in his reply brief
in support of his motion, Fischer now imagines that
additional information would support his claim but
was wrongly withheld by the defense in discovery. See
Reply Br. at 2. But Fischer’s claim is nothing more
than rank speculation. Id. at 3. The evidence on
which he does rely is the same evidence put before the
Magistrate Judge and this Court. And in any event, a
dispute as to the fulsomeness of defendants’ discovery
should have been raised—as were several disputes, including as to the Forrests’ uses of general objections in
their discovery objections, see Dkt. 151—during discovery, or, at the very latest, as an objection to the

26A
R&R; Fischer did not raise these concerns at any
point.
Finally, Fischer has not demonstrated that the
Court’s opinion imposes a manifest injustice or relies
on a clear error of law. To the extend he believes the
Court’s decision rests on an error of law—clear or otherwise—that argument must now be addressed to the
Court of Appeals.
Because the Court denies Fisher’s request for
reconsideration, the Court has found it unnecessary to
consider the Forrests’ motion to strike the 56.1 Responses Fischer filed in support of his reconsideration
motion.
CONCLUSION
For the reasons stated above, Fischer’s motion
for reconsideration is denied. The Clerk of Court is
respectfully directed to close the motions pending in
14 Civ. 1304 at Dkts. 202 and 207, and in 14 Civ. 1307,
at Dkts. 199 and 203. These cases remain closed.
SO ORDERED.
[signature]
Paul A. Engelmayer
United States District Judge
Dated: August 29, 2018
New York, New York

27A

28A
APPENDIX D:
DISTRICT COURT ORDER GRANTING SUMMARY
JUDGMENT
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
JAMES H FISCHER,
Plaintiff,
-vSTEPHEN T. FORREST, JR., SANDRA F. FORREST,
SHANE R. GEBAUER, and BRUSHY MOUNTAIN
BEE FARM, INC.,
Defendants.
14 Civ. 1304 (PAE) (AJP)
14 Civ. 1307 (PAE) (AJP)
OPINION & ORDER
These consolidated cases arise out of the termination of a longstanding relationship between plaintiff
James H. Fischer and defendants Stephen T. Forrest,
Jr., Sandra F. Forrest, Shane R. Gebauer, and Brushy
Mountain Bee Farm, Inc. (“Brushy” and collectively,
“Defendants”). Fischer alleges that the Defendants
used his likeness and proprietary text and images to
promote their own competing knock-off version of his

29A
product, Bee-Quick, a honesty harvesting aid. He
brings claims under the Copyright Act, 17 U.S.C. § 101
et seq., the digital Millennium Copyright Act
(“DMCA”), 17 U.S.C. § 1201 et seq., and the Lanham
Act, 15 U.S.C. § 1051 et seq., along with a claim under
New York law for unfair competition.
Pending now are Brushy’s motion for summary
judgment. In a thorough and persuasive Report and
Recommendation, the Honorable Andrew J. Peck,
United States Magistrate Judge, has recommended
granting these motion. For the reasons that follow,
the Court agrees, and grants these motions in their
entirety.
I. Background1
This summary of the factual and procedural history of this matter draws upon the following submissions (and exhibits thereto):
Fischer’s Second Amended Complaints, 14 Civ. 1304, Dkt. 50
(“SAC 04”), and 14 Civ. 1307, Dkt. 70 (“SAC 07”); Fischer’s Third
Amended Complaints, 14 Civ. 1304, Dkt. 90 (“TAC 04”), and 14
Civ. 1307, Dkt. 111 (“TAC 07”); Defendants ‘motions for summary
judgment, 14 Civ. 1304, Dkt. 175 and 14 Civ. 1307, Dkt. 177
(“Def. Br.”); Fischer’s memoranda in opposition to these motions,
14 Civ. 1304, Dkt. 178, and 14 Civ. 1307, Dkt. 179 (Pl. Br.”); 14
Civ. 1304, Dkt. 184 and 14 Civ. 1307, Dkt. 185 (“R&R 2” or “the
Report”); Fischer’s objections to the Report, 14 Civ. 1304, Dkt.
191, and 14 Civ. 1307, Dkt. 188 (“Obj.”); Brushy’s response to
Fischer’s objections, 14 Civ. 1304 Dkt. 193, and 14 Civ. 1307, Dkt.
189 (“Def. Obj. Resp.”); and Fischer’s reply to Defendants’ response to his objections. 14 Civ. 1304, Dkt. 196, and 14 Civ. 1307,
Dkt. 192 (“Pl. Obj. Reply”).
1

30A
A. Facts
1. The Parties
Since 1999, Fischer, an apiarist, has successfully sold the product Bee-Quick. TAC 04 ¶ 26.2
Fischer promotes “Bee-Quick” as a unique “honey harvesting aid” that it is “food-safe, non-toxic, not foul
smelling, and effective.” Id.
In 2000, Fischer began using the following four
phrases, among others, in conjunction with the sale of
Bee-Quick on his website:
1. “Are you tired of your spouse making you
The two cases addressed herein, 14 Civ. 1304 and 14 Civ. 1307,
have been litigated in tandem. On February 27, 2014, Fischer
filed similar suits under these docket numbers against Stephen
and Sandra Forrest. On June 19, 2014, the Court stated that it
was inclined to consolidate the two cases and invited the parties’
views. Dkt. 37. Fischer, then pro se, objected to the consolidating, stating that combining the suits would impair his ability to
recover separate awards for direct and contributory infringement. See Dkt. 41 (citing 17 U.S.C. § 504 and Arista Records LLC
v. Lime Grp. LLC, No. 06 Civ. 5936 (KMW), 2011 WL 1338194,
at *3 (S.D.N.Y. Apr. 7, 2011)). In an order dated July 2, 2014,
this Court declined to consolidate the cases. See Dkt. 44. However, the Court determined that the two cases should be dealt
with in concert. Id. As a result, the parties’ filing in the two cases
relevant to the pending motions are substantially identical. Accordingly, for brevity, the Court henceforth will cite to the submission in 14 civ. 1307 unless otherwise indicated.
2

31A
sleep in the garage after using Butyric Anhydride?”
2. “Are you tired of using hazardous products on
the bees you love?”
3. “Fischer’s Bee-Quick is a safe, gentle, and
pleasant way to harvest your honey.”
4. “A Natural, Non-Toxic Blend of Oils and
Herbal Extracts.”
See SAC 04 Ex. 5. Fischer has created non-website
advertisement for Bee-Quick using some of the above
phrases. See, e.g., id.
Stephen and Sandra Forrest (“the Forrests”)
are the founders of Brushy Mountain Bee Farm Inc.
(“Brushy”). Dkt. 175 (“Stephen Forrest Decl.”) ¶ 2.
Brushy is a mail-order business that primarily deals
in bee-keeping supplies. Id. ¶¶ 2-3. In 2007, the Forrests hired Shane Gebauer, Brushy’s current President. Dkt. 173 (“Gebauer Decl.”) ¶ 1; Dkt. 180, Ex. B
(“Gebauer Dep.”) at 6.
According to Gebauer, between 2008 and 2013,
he worked collaboratively with the Forrests on the
Brushy catalogue and website. Gebauer Dep. At 24,
26-29; Dkt. 180 Ex. D. (“Sandra Forrest Dep. 2”) at 67. This collaboration entailed, among other things, selecting photographs and texts for the products Brushy
sold online and through its cataologue. Gebauer Dep
at 27-32. To that end, Gebauer attests, Brushy “would

32A
draft its own copy [and] describe the products that it
had purchased from other vendors that it was reselling.” Id. at 29. Today, Gebauer works with others “to
review and approve the Brushy Mountain Bee Farm
catalogue.” Id. at 31.
The Forrests attest that, around 2009, they
largely stopped working on the Brushy catalogue.
Dkt. 180 Ex. C. (“Stephen Forrest Dep. 2”) at 26-27,
Sandra Forrest Dep. 2 at 5; Dkt. 176 Ex. C (“Sandra
Forrest Dep 1”) at 17. When they did work on the catalogue, however, they generally did so in the manner
described by Gebauer. See Sandra Forrest Dep. 2 at 6
(“We would read what the supplier had to say and then
we would write it up in a way we thought would be
best to describe the product to our customers.”) id. Stephen Forrest Dep 2 at 12 (“I believe we wrote [product
descriptions] when Sandy and I were doing it.”).
As of 2014, the Forrests “ceased having any equity interest in Brushy Mountain Bee Farm, Inc.”
Gebauer Dep. At 9. Brushy Mountain Bee Farm Holdings, Inc. obtained the Forrests’ equity in Brushy. Id.
at 8.
2. The Fischer-Brushy Relationship
In 2002, Brushy began selling Bee-Quick. Dkt
174 (“Sandra Forrest Decl.”) ¶ 2; Stephen Forrest Decl
¶¶ 4-5. At that point, Fischer alleges, Brushy became
an “Authorized Dealer” of the product. TAC 04 ¶ 32.

33A
Stephen Forrest denies this. He attests that Fischer
and Brushy never had a written contract. Stephen
Forrest Decl ¶ 4; see also Dkt. 176 Ex. A (“Fischer
Dep.”) at 9; Gebauer Decl. ¶ 3.
From 2002 onwards, Brushy used the following
words (or similar ones to it) to promote Bee-Quick in
advertisements:
This 100% Natural, non-toxic blend of
oils and herb extracts works just like
Bee go and it smells good! Fischer’s
Bee Quick is a safe, gentle, and pleasant way to harvest your honey. Are you
tired of your spouse making you sleep
in the garage after using Bee Go? Are
you tired of using a hazardous product
on the bees you love? Then this is the
product for you!
Sandra Forrest Decl. ¶ 3; Gebauer Decl. ¶ 14 & Ex F.
Sandra Forrest claims that she wrote the above text,
although she and Stephen Forrest recalled with certainty only that they wrote the phrase: “Are you tired
of your spouse making you sleep in the garage?” Sandra Forrest Dep. 1 at 8-9; Dkt. 176 Ex. D. (“Stephen
Forrest Dep. 1”) at 19. Fischer attests that the Forrests did not author this text. See Dkt. 180 Ex. E
(“Fischer Aff.”) at 1.

34A
3. Termination
Brushy Relationship

of

the

Fischer-

Around 2010, Brushy allegedly began having
trouble obtaining Bee-Quick and decided to sell its
own version of the product, Natural Honey Harvester,
which it obtains from a third-party vendor. Gebauer
Dep. at 54-56, 71.; Stephen Forrest Dep. 2 at 36. As a
result, on December 10, 2010, a Brushy employee sent
Fischer an email stating that Brushy would not be
selling Bee-Quick in its 2011 catalogue and asking for
an address to which it could ship back its remaining
Bee-Quick supply. See SAC 04 Ex. 3b (December 10,
2010 Email).
Fischer asserts that, as a result of the December 10, 2010 email, “Defendants immediately lost any
right, license, or permission to use any of [his] intellectual property, as all such use was permitted solely
in the selling of Plaintiff’s product.” See TAC 04 ¶ 35;
TAC 07 ¶ 47. Defendants accept this proposition in
their motions for summary judgment. On the bases of
the parties’ common attestations, the Court for purposes of this lawsuit, assumes that as of December 10,
2010, Brushy no longer had any “right,” “license” or
“permission” to use Fischer’s intellectual property.
Fischer did not, however, communicate to
Brushy that it no longer had such permission to use
his intellectual property until April 2011, when
Fischer sent a cease and desist letter, alleging, inter

35A
alia, that Brushy was engaged in “copyright infringement.” See Gebauer Decl. Ex. D. In a letter dated April
14, 2011, Gebauer replied that "there [did] not seem to
be grounds for [Fischer’s] request,” and that Brushy
would “review” Fischer’s concerns if he was more “specific.” Gebauer Decl. Ex. E. Fischer does not appear to
have responded.
After Brushy's December 10, 2010 email,
Brushy did not immediately remove Bee-Quick from
its website. Gebauer Decl. ¶¶ 13-14 & Ex. F. On December 26, 2010, Bee-Quick was still listed for sale
there. See id. And photos of Bee-Quick remained on
Brushy's website until at least January 28, 2011, at
which point they appeared to have been replaced by
photos of Natural Honey Harvester. Gebauer Decl. ¶
15. Further, Fischer has adduced exhibits indicating
that an image of Bee-Quick remained on Brushy's
website until at least March 3, 2014. See SAC 04 Exs.
9-12, see also Fischer Arr. at 10 (attesting that links
to images of Bee-Quick on Brushy website were still
operable as of May 8, 2017).
On January 21 , 2011, Brushy shipped its 2011
catalogue advertising Natural Honey Harvester. Def.
Br. Ex. 6 at 2-3, Def. Br. Ex. 7 (“Twete Aff.”) ¶¶ 3-4 &
Exs. A-B. The text in the 2011 catalogue was as follows:
For years we have promoted the use of
a natural product to harvest honey but

36A
an unreliable supply of such a product
has forced us to come out with our own.
This 100% Natural, non-toxic blend of
oils and herb extracts works just like
Bee Go® and it smells good! Natural
Honey HarvesterTM is a safe, gentle,
and pleasant way to harvest your
honey. Are you tired of your spouse
making you sleep in the garage after
using Bee Go®'? Are you tired of using
hazardous products on the bees you
love? Then this is the product for you!
Def. Br. Ex. 6 at 3. Gebauer attests that Stephen Forrest came up with the name “Natural Honey Harvester" and that he and Stephen Forrest collaborated
on the catalogue text. Gebauer Dep. At 55, 23. In contrast, Stephen Forrest attests that Gebauer came up
with this wording. Stephen Forrest Dep. l at 37. Between 2012 and 2014, the above text remained largely
unchanged in Brushy's catalogues, see SAC 07 Ex. 20
(excerpts from Brushy's catalogues), and it remained
online until at least December 28, 2011, id. Ex. 8. Two
of Brushy's third-party vendors, The Honey Hole and
C&T Bee Supply, used this advertisement in 2012 and
2014. See SAC 07 Exs. 21-22.
On February 7, 2011, Fischer filed a copyright
registration for the “text and images of [his] BeeQuick.com website.” TAC 04 ¶ 41; Def. Br. Ex. 4.

37A
According to Fischer, Defendants removed Copyright Management Information ("CMI") from his photographs and other unspecified copyrighted works.
Fischer Dep. at 133, 137. As to the photographs,
Fischer claims that Defendants removed metadata
from a Bee-Quick photo he provided them, Fischer
Dep. at 137, and put their own watermark over his
photo, TAC ¶ 141. With respect to non-photographic
materials, although Fischer's claims as to the precise
source of the CMI at issue are elusive,3 Fischer alleges
Fischer has not been consistent as to the specific materials,
other than his photographs, from which Defendants allegedly removed CMI. In his third amended complaint, Fischer alleged that
he had sent Brushy "layout ready text," see e.g., TAC 04 ¶ 92, in
a later affidavit, Fischer stated that the "epigrams" were available online, Fischer Aff. at 4, and in his deposition, Fischer appeared to claim that CMI had been removed from his brochure,
see Fischer Dep. at 137 (Q: “[H]ow many sentences are you alleging [Defendants] removed from your brochure?” A: “Four”). In
the same deposition, however, Fischer stated that he was "not
alleging [that Brushy] ever made a copy of my brochure without
the copyright notice.” Id. at 133 (emphasis added), and, in a later
affidavit in opposition to summary judgment, Fischer stated that
there is “clear intentional removal of CMI from the copyrighted
Works misused on both the website and in the catalog, specifically, the removal of the word 'Fischer' (the author's name) from
the text Works, and its replacement with 'Natural Honey Harvester."' Fischer Aff. at 6. Judge Peck's Report took the brochure
as the "source" material for Fischer's DMCA claim. Although
Fischer's varying articulations have made it hard to pin down his
theories as to the material(s) from which his CMI was wrongfully
removed, the Court, in the interests of completeness and of
3

38A
that when Defendants began selling Natural Honey
Harvester, they altered their online and print advertisements by replacing, inter alia, the term "Fischer's
Bee-Quick" with "Natural Honey Harvester" in a sentence describing the product. See Fischer Dep. at 13133, 137, Fischer Arr. at 6, see also Fischer v. Forrest,
14 Civ. 1304, 2015 WL 195822 at *8 (S.D.N.Y. Jan. 13,
2015) ("[T]he Bee-Quick brochure attached to the complaints . . . stated that 'Fischer's Bee-Quick is a safe,
gentle, and pleasant way to harvest your honey.' . . .
Brushy Mountain replaced the textual reference to
'Fischer's Bee-Quick' with the words 'Natural Honey
Harvester."'). Fischer argues that these acts constitute
unlawful CMI removal. Defendants deny ever removing any CMI or metadata. Gebauer Decl. 'H 8, Sandra
Forrest Decl. ¶ 8, Stephen Forrest Decl. ¶ 9.
B. Procedural History
1. Earlier Proceedings
On July 9, 2014, defendants Stephen and Sandra Forrest moved to dismiss Fischer's pro se complaints. In a decision issued January 13, 2015, the
Court denied those motions. 14 Civ. 1304, Dkt. 45, 14
Civ. 1307, Dkt. 65 (collectively, “First MTD”).

fairness to Fischer, addresses each of the theories Fischer has articulated, in the light most favorable to him.

39A
On December 28, 2015, Fischer filed a Third Amended
Complaint in each action. See TAC 04; TAC 07. After
Defendants moved to dismiss various claims, see 14
Civ. 1304, Dkts. 102-110, 14 Civ. 1307, Dkts. 123-129,
the Court referred the motions to dismiss to the Honorable Henry Pitman, United States Magistrate
Judge, for a Report and Recommendation, having earlier referred the cases to Judge Pitman for general pretrial supervision. On December 15, 2016, these referrals were reassigned to Judge Peck.
On January 13, 2017, Judge Peck issued a Report and Recommendation, 14 Civ. 1304, Dkt. 132, 14
Civ. 1307, Dkt. 147 ("R&R l"), as to the pending motions to dismiss. On January 27, 2017, Fischer filed
objections to R&R 1, 14 Civ. 1304, Dkt. 137; 14 Civ.
1307, Dkt. 150, and on February 10, 2017, Defendants
filed responses to these objections, 14 Civ. 1304, Dkt.
141; 14 Civ. 1307, Dkt. 151. On March 21, 2017, this
Court adopted the entirety of R&R 1 in a written opinion. 14 Civ. 1304, Dkt. 153, 14 Civ. 1307, Dkt. 161. The
Court thereby dismissed Fischer's trademark infringement claims and his New York right of publicity
claim against all defendants. The Court also dismissed
Fischer's copyright infringement claims against
Gebauer that had accrued before February 3, 2012 and
those against Brushy that had accrued before December 28, 2012.

40A
2. Defendants’ Motions for Summary
Judgment
On April 19, 2017, following discovery, Defendants filed motions for summary judgment, 14 Civ.
1304, Dkt. 170, 14 Civ. 1307, Dkt. 172, as well as memoranda outlaw in support, 14 Civ. 1304, Dkt. 175, 14
Civ. 1307, Dkt. 177 ("Def`. Br."). On May 8, 2017,
Fischer filed memoranda in opposition. 14 Civ. 1304,
Dkt. 178, 14 Civ. 1307, Dkt. 179 ("Pl. Br."). On May
15, 2017, Defendants filed reply memoranda. 14 Civ.
1304, Dkt. 180, 14 Civ. 1307, Dkt. 181 ("Def. Reply
Mem.").
On July 14, 2017, Judge Peck issued a thorough
(59-page) Report and Recommendation on the motions
for summary judgment. 14 Civ. 1304, Dkt. 184; 14 Civ.
1307, Dkt. 185 ("R&R 2" or "the Report"). The Report
recommends granting these motions in their entirety.
On August 25, 2017, Fischer filed objections. 14 Civ.
1304, Dkt. 191; 14 Civ. 1307, Dkt. 188 ("Obj."). On August 25, 2017, Defendants filed a response. 14 Civ.
1304 Dkt. 193, 14 Civ. 1307, Dkt. 189 ("Def. Obj.
Resp."). On September 12, 2017, Fischer filed a reply.
14 Civ. 1304, Dkt. 196, 14 Civ. 1307, Dkt. 192 ("Pl. Obj.
Reply"),

41A
On January 13, 2017, Judge Peck issued a Report and Recommendation, 14 Civ. 1304, Dkt. 132, 14
Civ. 1307, Dkt. 147 ("R&R l"), as to the pending motions to dismiss. On January 27, 2017, Fischer filed
objections to R&R 1, 14 Civ. 1304, Dkt. 137; 14 Civ.
1307, Dkt. 150
II. Legal Standards
A. Reports and Recommendations
After a magistrate judge has issued a Report
and Recommendation, a district court may "accept, reject, or modify, in whole or in part, the findings or recommendations made by the magistrate judge." 28
U.S.C. § 636(b)(l). To accept the portions of a report to
which no timely objection has been made, "a district
court need only satisfy itself that there is no clear error on the face of the record." Acevedo v. Lempke, No.
10 Civ. 5285 (PAE) (HBP), 2014 WL 4651904, at *3
(S.D.N.Y. Sept. 17, 2014) (quoting King v. Greiner, No.
02 Civ. 5810 (DLC), 2009 WL 2001439, at *4 (S.D.N.Y.
July 8, 2009)). When a timely and specific objection
has been made, the court is obligated to review the
contested issues de novo. See id.; Fed. R. Civ. P.
72(b)(3), Hynes v. Squillace, 143 F.3d 653, 656 (2d Cir.
1998). But when the objections simply reiterate previous arguments or make only conclusory statements,
the court should review the Report and Recommendation for clear error. Dickerson v. Conway, No. 08 Civ.
8024 (PAE) (FM), 2013 WL 3 199094, at *l (S.D.N.Y.

42A
June 25, 2013); see also Kirk v. Burge, 646 F. Supp. $d
534, 538 (S.D.N.Y. 2009) (collecting cases). Further,
"[c]ourts generally do not consider new evidence raised
in objections to a magistrate judge's report and recommendation." Tavares v. City of New York, No. 08 Civ.
3782 (PAE), 201 l WL 5877548, at *2 (S.D.N.Y. Nov.
23, 201 1), see also Pan Am. World Airways v. Int'l
Bhd. of Teamsters, 894 F.2d 36, 40 n.3 (2d Cir. 1990)
("A district judge is not required to hear or rehear any
witness, and Pan Am had no right to present further
testimony when it offered no justification for not offering the testimony at the hearing before the magistrate.").
B. Motions for Summary Judgment
To prevail on a motion or summary judgment,
the movant must "show . . . that there is no genuine
dispute as to any material fact and the movant is entitled to judgment as a matter of law." Fed. R. Civ. P.
56(a). The movant bears the burden of demonstrating
the absence of a question of material fact. Celotex
Corp. v. Catrett, 477 U.S. 317, 322 (1986).
When the movant has properly supported its
motion with evidentiary materials, the opposing party
must establish a genuine issue of fact by "citing to particular parts of materials in the record." Fed. R. Civ.
P. 56(c)(l), see also Wright v. Goord, 554 F.3d 255, 266
(2d Cir. 2009). An issue of fact is "genuine" if the evidence is such that a reasonable jury could return a

43A
verdict or the non-moving party. SCR Joint Venture
L.P. v. Warshawsky, 559 F.3d 133, 137 (2d Cir. 2009).
"[A] party may not rely on mere speculation or conjecture as to the true nature of the facts to overcome a
motion for summary judgment." Hicks v. Baizes, 593
F.3d 159, 166 (2d Cir. 2010) (internal quotation marks
and citation omitted). "Only disputes over facts that
might affect the outcome of the suit under the governing law" will preclude a grant of summary judgment.
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248
(1986). In determining whether there are genuine issues of material fact, the Court is "required to resolve
all ambiguities and draw all permissible factual inferences in favor of the party against whom summary
judgment is sought." Johnson v. Killian, 680 F.3d 234,
236 (2d Cir. 2012) (quoting Terry v. Ashcroft, 336 F.3d
128, 137 (2d Cir. 2003)).
III. Discussions
Fischer makes several objections to the Report.
See Obj. at 1-2.
A. Fischer’s Claim for Statutory Damages
for Direct Copyright Infringement
Fischer objects on two grounds to the Report's
recommendation that he cannot obtain statutory damages for direct copyright infringement. First, he argues that Judge Peck, in determining the date of
Brushy's first infringing act, wrongly relied on an

44A
affidavit that should have been excluded. Obj. at 2-4.
Second, he argues that the Report is wrong that he
cannot recover statutory damages because Brushy's
first infringing act predated Fischer's copyright registration. Id. at 4-6. The Court reviews these arguments
in turn, after first reviewing the background legal
standards.
1. Applicable Legal Standards
“Under the Copyright Act, a copyright infringer
can be held accountable for either actual damages and
profits of the infringer or statutory damages." Solid
Oak Sketches, LLC v. 2K Games, Inc., No. 16 Civ. 724
(LTS), 2016 WL 4126543, at *2 (S.D.N.Y. Aug. 2, 2016)
(citing 17 U.S.C. § 504(a)). Statutory damages under
the Act are designed to "discourage wrongful conduct,"
as well as to provide "reparation for injury." F. W.
Woolworth Co. v. Contemporary Arts, Inc., 344 U.S.
228, 233 (1952).
"In order to obtain statutory damages and attorneys' fees, a plaintiff must have registered its copyright prior to the alleged infringement." Solid Oak
Sketches, LLC, 2016 WL 4126543 at *2 (citing 17
U.S.C. § 412 and Knitwaves, Ine. v. Lollyfogs Ltd., 71
F.3d 996, 1012 (2d Cir. 1995)). "Courts in this district
have held that Section 412 of the Copyright Act imposes a bright-line rule that precludes recovery of statutory damages and attorneys' fees where the first act
of infringement in a series of ongoing infringements

45A
occurred prior to the work's copyright registration.”
Id.
As explained below, this rule, given the dates
when Brushy used the allegedly infringing advert serpents, precludes Fischer from recovering statutory
damages as a matter of law.
2. Amanda Twete Affidavit
Fischer objects to the Report's consideration of
the affidavit of Amanda Twete, which Defendants offered in support of summary judgment. Obj. at 2-4. In
fact, the Twete affidavit was properly admitted and
considered in the Report.
Twete attests that she works "as the Mailroom
Supervisor for Midstates Group,” Twete Aff. ¶ 2, , that
Midstates shipped Brushy's 2011 catalogue, id 1] 3,
that it did so on January 21, 2011, id. ¶ 4, and that she
"would expect" some, if not all, of Brushy's 2011 catalogues to have been received "within 7-14 days from
the shipment date of January 21, 201l,” id. ¶ 6.
Twete's affidavit attaches two exhibits. Exhibit A is a
copy of a Midstates' mailing log, which reflects January 21, 2011 as the date on which Midstates shipped
Brushy's 2011 catalogues. Id. Ex. A. Exhibit B is a
copy of a screenshot of the "job ticket" for Brushy's
2011 catalogue. Id. Ex. B. It, too, reflects that the shipment date for the 2011 catalogue was January 21,
2011. Id.

46A
In objecting that Judge Peck should not have
treated the Twete affidavit as admissible, Fischer relies on a Linkedln page that he had not offered on the
motions for summary judgment. Obj. Ex. B. Fischer
argues that the page is Twete's and that it establishes
that Twete lacked "direct knowledge" of the facts to
which she attested because it indicates that Twete
joined the company in 2014—after the events at issue.
He argues that the Twete affidavit should be excluded
as not based on personal knowledge. Obj. at 3 (citing
Fed. R. Civ. P. 56(e)(1)). Fischer further argues that
the Twete affidavit is contradicted by its attached exhibits. See Obj. at 3. Fischer explains that he did not
object earlier to receipt of Twete affidavit because he
"felt all the affidavits [submitted] were . . . clearly excludable under FRE 806," Pl. Obj. Reply at 3 (emphasis added).
These objections fail. Fischer's objection rests
almost entirely on the Linkedln page. Fischer, however, never adduced that page in evidence in connection with briefing on summary judgment, despite being aware that Defendants had offered Twete's affidavit into evidence. (Indeed, Fischer did not take Twete's
deposition or object to receipt of her affidavit until after Judge Peck's Report had issued.) It is, however,
well settled that "[c]our'ts generally do not consider
new evidence raised in objections to a magistrate
judge's report and recommendation." Tavares, 2011
WL 5877548, at *2. The submission of new evidence

47A
following such a Report is merited only in rare cases,
where the party objecting to a Report has offered "a
most compelling reason" for the late production of such
evidence, Housing Works, Inc. v. Turner, 362 F. Supp.
2d 434, 438 (S.D.N.Y. 2005), or a "compelling .justification for [its] failure to present such evidence to the
magistrate judge," Thomas v. Comm 'r of Soc. Sec., ,
No. 16 CV 9247-LTS-KHP, 2017 WL 3475064, at *1
(S.D.N.Y. Aug. I 1, 20] 7) (quoting Berbick v. Precinct
42, 977 F. Supp. 2d 268, 273 (S.D.N.Y. 20l3)). Here,
Fischer has not offered any such justification.
Moreover, on its face, Twete's affidavit provides
an adequate basis on which she is qualified to testify
as to the shipment and expected receipt dates of
Brushy's 2011 catalogues. She attests that she serves
as mailroom supervisor for Brushy, a position that by
its nature would tend to imply experience which such
matters. She further attests that the statements to
which her affidavit is attesting are known to her to be
true. Fischer was at liberty to test in a deposition her
competence to so attest, whether based on her personal experience or as a custodian familiar with and
qualified to testify about Brushy's mailroom records.
He did not do so.4 And the Linkedln page that Fischer
——————————
Defendants represent that, had Fischer deposed Twete, he
would have learned that "she has worked at Midstates since at
least 2006, personally handled the Brushy Mountain accountant,
4

48A
now presents, based on an Internet download, is
plainly inadmissible for any purpose-it has not been
authenticated, and the statements in it are inadmissible hearsay. The Court therefore declines to receive
Fischer's new evidence or to rule that Twete's unobjected-to affidavit is inadmissible.
In any event, the affidavit is not the only record
evidence that Brushy's acts of alleged infringement
date to December 2010. Fischer's own SAC attached
as Exhibit 7 a screenshot of a webpage that shows alleged infringement of just such a nature on December
26, 2010, and this exhibit was referenced in Fischer's
Third Amended Complaint. TAC ¶ 52.5 Fischer's own
evidence thus supports the Report's assessment of the
date of Defendants' first infringing act. Excluding
Twete's affidavit would, therefore, not disturb the Report's outcome.
—————————
and that Midstates has a postal facility at is location in South
Dakota." Defi Obj. Resp. at 3.
5 Consistent with this evidence, Defendants' Local Rule 56.1
statement, to which Fischer never responded as to this point,
states that Fischer's product was on Brushy's website on December 26, 2010 and that Brushy's 2011 catalogue was mailed on
January 21 , 2011.

49A
3. Statutory Damages for Pre-Registration Infringement
Fischer also objects to the Report's determination that he cannot obtain statutory damages on the
ground that Defendants' first infringing act in a series
predated Fischer's copyright registration. Obj. at 2-6,
see R&R 2 at 23-26. On de novo review, the Court
finds, with the Report, that Fischer cannot recover
statutory damages.
Judge Peck reasoned as follows. He noted that
Fischer had repeatedly alleged that Defendants lost
all right and license to use his intellectual property on
December 10, 2010. R&R 2 at 4 n.4. Judge Peck therefore, without objection, used December 10, 2010 as the
date after which any use of Fischer's intellectual property by Brushy would constitute copyright infringement. Id. Judge Peck next found that Brushy had kept
Bee-Quick on its website until at least December 26,
2010 and had shipped its catalogue containing the allegedly infringing phrases on January 2 l , 2011. That
meant that Brushy had infringed Fischer 's copyright
in both December 2010 and January 2011. Id. at 2526. Judge Peck further found that Fischer had not registered his copyright until February 7, 2011. Id. On
these facts, he held, statutory damages are unavailable, based on uniform case law in this District that 17
U.S.C. § 412 imposes a bright-line rule under which
such damages (as opposed to actual damages) are

50A
unavailable where a defendant's first infringing act occurs before a plaintiff has registered his copyright. Id.
at 24-26. Judge Peck also rejected Fischer's theory
that each republication of his intellectual property
constituted a new infringing act. Rather, he held,
Brushy's post-registration uses of Fisher's intellectual
property were part of a pattern of similar ongoing infringements dating to Brushy's first pre-registration
infringement. As Judge Peck explained, Brushy's postregistration uses of Fischer's phrases were largely
identical to its pre-registration uses and no appreciable amount of time had passed between the publications. Id. at 25-27.
In objecting to this aspect of the report, Fischer
makes several arguments. See Obj. at 4-5, Pl. Obj. Reply. at 1-2.
Fischer now claims that Brushy’s December 10,
2010 email announcing its cessation of sales of BeeQuick did not, in fact, result in its losing all rights and
licenses to use his intellectual property. This argument, he admits, repudiates a core tenet of his Complaint. See Pl. Obj. Reply at 5 (“The Complaint . . . was
wrong on contract law, on copyright law, and factually."). Instead, Fischer appears now to characterize
Brushy's 2010 email as akin to a notice of intent to
breach, Obj. at 4, he claims that Brushy could not have
"infringe[d] until 2012," id. at 5. This is so, Fischer
says, because Brushy "fully performed" in 2011 by

51A
selling Bee-Quick in January 2011. Id. Fischer notes
that among their defenses to Fischer's copyright infringement claim in their Answer, Defendants stated
that they had a "license" to sell. Pl. Obj. Reply at 5, see
14 Civ. 1304, Dkt. 53 ("Ans.") at 23. Fischer similarly
characterizes his April 2011 cease and desist letter as
prospective only. Obj. at 4. In effect, Fischer characterizes this letter to convey that rescission of Brushy's
license would first occur in 2012. On this basis,
Fischer argues, Brushy's first infringing act could not
have occurred until 2012, after Fischer's copyright
registration in February 2011. Id. at 4-5.
Depending on the circumstances, courts in this
district have taken differing approaches where a litigant raises new legal theories in objections to a Report
and Recommendation. Many hold that new legal theories are akin to new evidence and therefore not a valid
basis to oppose a Report. See e.g., Parks v. Comm’r of
Soc. Sec., No. 15 CIV. 6470 (ER), 2017 WL 3016946, at
*3 (S.D.N.Y. July 17, 2017) (collecting cases). Others
use a multi-factor test to determine whether there is
good reason to consider the new theory. See e.g., id.
For two independent reasons, this Court declines to allow Fischer, at this late stage, to fundamentally reconceive his theory of liability.
First, unlike in cases in which a plaintiff has
been silent on the relevant legal point, here, Fischer
in his Complaint pled directly contrary to the theory

52A
he now pursues, and this litigation has proceeded on
Fischer's declared premise that Brushy's right to use
his intellectual property terminated in December
2010. It is black letter law that a plaintiff may not alter his pleadings through a brief. See, e.g., Wright v.
Ernst & Young LLP, 152 F.3d 169, 178 (2d Cir. 1998).
Here, Fischer has attempted to do just that, and his
repudiation of his pleadings comes late in the litigation, no less. See Pl. Obj. Reply at 5 ("The Complaint .
. . was wrong on contract law, on copyright law, and
factually.").6
Second, permitting Fischer to reconceive and effectively to restart this case at this late stage-after discovery, full briefing on summary judgment before a
magistrate judge, and the rendering of a detailed and
thoughtful opinion on the plaintiffs claims as brought
—————————
It is no answer to treat Fischer's objections as, effectively, an
untimely motion or leave to file an amended complaint. "[W]here
a 'plaintiff blatantly changes his statement of the facts in order
to respond to the defendant['s] motion to dismiss . . . [and] directly
contradicts the tacts set faith in his original complaint,' a court
is authorized 'to accept the facts described in the original complaint as true."' Collision v. Cfravc!l11, Swczine & Moore LLP,
No. 08 CIV 0400 (NRB), 2008 WL 4386764, at *6 (S.D.N.Y. Sept.
24, 2008) (quoting Wallace v. New York City Dep’t of Corr., No.
95 Civ. 4404, 1996 WL 586797, at *2 (E.D.N.Y. Oct. 9, 1996)),
aff’d, 356 F. App’x 535 (2d Cir. 2009).
6

53A
would waste substantial judicial resources and undermine the objectives of the Magistrates Act. "A proceeding before a magistrate judge is not a meaningless
dress rehearsal." Dennard v. Kelly, 90-CV-0203(E)(F),
1997 WL 9785 at *l (W.D.N.Y. Jan 2, 1997) (citing Klawitter v. Chaser, No. 93-CV-0054E(H), 1996 WL
643367 at *1 (W.D.N.Y. Oct. 18, 1995)).
The waste of resources would be particularly
acute here because permitting Fischer to alter his theory as to when Brushy first infringed his copyright
would open the door to a new round of briefing (if not
discovery). In particular, were Brushy treated as having a valid license through 2012, the issue would then
arise whether Defendants' use of Fischer's copyright
prior to the date of Fischer's copyright registration
had been within or outside the scope of the license he
granted them. "It is black-letter law that a claim or
copyright infringement lies when a party's use of copyrighted material exceeds the scope of its license." See
John Wiley & Sons, Inc. v. DRK Photo, 998 F. Supp.
$d 262, 287 (S.D.N.Y. 2014) (quoting Harrell v. Van
der Plas, No. 08 Civ. 8252 (GEL), 2009 WL 3756327,
at *2 (S.D.N.Y. Nov. 9, 2009)) (collecting cases). Thus,
to defeat the defense to statutory damages that
Brushy's infringement predated registration of Fischer's copyright, Fischer would have to show that
Brushy's use of Fischer's copyrighted material to promote Natural Honey Harvester—by shipping its catalogue with Natural Honey Harvester and the

54A
infringing phrases on January 21, 201 I, and by advertising Natural Honey Harvester on its website by January 28, 2011—was within Brushy's license. Only if
those 2011 acts were within Brushy's license would
they not give rise to a claim for copyright infringement. To so establish would require Fischer to repudiate his pleadings, in which he consistently contended
that these acts by Brushy were unauthorized. See e.g.,
TAC 07 ¶ 26 ("[N]o permission was granted to use [his]
copyrighted works in any way except specifically in
the sale of [his] product."), see also id. ¶¶ 47, 72. And
these pleadings were plausible: As the Court noted in
denying the motion to dismiss, "that Fischer[‘s license]
[would] allow[] a competitor to repurpose original
works he had created, copyrighted, and continued to
use to promote and sell his own produc-is highly improbable.” Fischer, 2015 WL 195822, at *7.7
Fischer attempts to avoid this result by noting, based on TVT
Records v. Island De/./am Music Grp., 412 F.3d 82 (2d Cir.
2005), and Graham v. James, 144 F.3d 229 (2d Cir. 1998), that a
breach of a licensing agreement cannot give rise to copyright infringement prior to rescission, and positing that he did not rescind the license until after February 7, 2011. But this theory,
too, relies on disputed facts and legal conclusions, including that
Defendants' license to sell Fischer’s goods persisted after Defendants had announced to Fischer their decision to discontinue selling his goods, and that the license entitled them to use Fischer's
intellectual property to sell Defendants' competing products.
Fischer has long disputed these points. See, e.g., TAC 04 ¶ 237
("The fact of this breach of contract is of particular note in this
litigation as a firm basis for the loss of any and all
7

55A
The Court therefore adopts this aspect of the
Report, which rightly held that, as a matter of law,
Fischer cannot recover the statutory damages he
elected to pursue. Given Fischer's claim that Brushy's
license to use Fischer’s intellectual property ceased on
December 10, 2010, Brushy's uses of that property in
December 2010 and January 201l were acts of infringement that predated Fischer's February 2011
copyright registration, precluding recovery of statutory damages under 17 U.S.C. § 412. See Solid Oak
Sketches, 2016 WL 4126543 at *2 (collecting cases).
And the law does not support Fischer’s claim that
Brushy’s annual republications were separate infringing acts. See e.g., id. at *3 (one-year gap insufficient to
give rise to a new infringing act, "when the same defendant infringes on the same protected work in the
same manner as it did prior to the work's registration,
the post-registration infringement constitutes the continuation of a series of ongoing, inf1°ingements"), see
—————
license, permission, or grant of rights Defendants had as a result
of their status as an Authorized Dealer for Plaintiff. Any/all
rights terminated in Dec 20l0."), TAC 07 ¶ 72 ("Defendants'[sic]
had full knowledge of Plaintiff's rights under copyright, and the
highly limited nature of the use they were permitted when selling
Plaintiffs product."), id. at ¶ 26 ("[N]o permission was granted to
use Plaintiffs copyrighted works in any way except specifically in
the sale of Plaintiff's product.").

56A
Irwin v. ZDF Enterprises GmbH, No. 04-CV-8027RWS, 2006 WL 374960, at *6 (S.D.N.Y. Feb. 16, 2006),
cf. Troll Co, v. Uneedcz Doll Co., 483 F.3d ISO, 158-59
(2d Cir. 2007) (finding "nine or ten years" of cessation
a "nontrivial period of time" such that "a post-registration act of infringement [could] be deemed [not] to
have commenced before registration").
B. Fischer’s Claim for Statutory Damages
based on Secondary Infringement
Fischer's Complaints alleged that two thirdparty vendors, C&T Bee Supply and The Honey Hole,
had infringed on his copyrighted works by displaying
them online without his permission. See, e.g., TAC 07
¶ 51. Fischer attached images embodying this alleged
infringement. See, e.g., SAC 07 Exs. 21-22. Fischer did
not join these vendors, he instead sought to hold
Brushy alone liable for their acts. See TAC 07 ¶¶ 95,
102, 109, 116. Fischer alleged that Brushy's actions
caused the vendors to infringe, for which Brushy is
secondarily liable. See, e.g., TAC 07 at ¶¶ 51, 83-89,
95, 102, 109, 116, Pl. Obj. Reply at 7.
The Report recommended granting Brushy's
summary judgment motions as to Fischer's secondary
infringement claims, substantially because the vendors' infringements were "part of a series of related infringements by defendants and the [third parties] of
the same copyrighted work" that predated Fischer's
registration of his copyright, see R&R 2 at 29, thereby

57A
disentitling Fischer to statutory damages. Fischer objects to that recommendation, arguing that Judge
Peck overlooked that these two consolidated cases include "a distinct and separate action (l4cv1307) for
secondary infringement," Obj. at 5-6, and that Fischer's "sole reason for filing l4cv1307 as a separate action was to seek a separate award of statutory damages for the indirect infringement over and above that
for direct infringement," id. at 6.
Fischer's basis for objecting to this aspect of the
Report is not entirely clear, but he appears to contend
that his filing of two separate lawsuits, rather than
consolidating his claims against Brushy into a single
lawsuit, entitles him to two statutory damage awards,
one for Brushy's direct infringement and another for
Brushy's having caused its vendors to infringe on its
behalf. Fischer appears to rely on 17 U.S.C. § 504,
which allows a copyright owner to elect, in lieu of actual damages, an award of statutory damages "for all
infringements involved in the action with respect to
any one work, for which any one infringer is liable individually, or for which any two or more infringers are
liable jointly and severally[.]" 17 U,S.C. § 504(c) (emphasis added).
Fischer's critique is not responsive to the Report's basis for recommending against an award of
statutory damages from Brushy based on the vendors'
alleged infringement. Judge Peck acknowledged—and

58A
did not overlook—the fact that Fischer had filed two
separate suits, including one pursuing a theory of secondary liability. See R&R 2 at 27-30, see also id. at 1,
28. But he reasoned that Fischer's claim for separate
statutory damages failed as a matter of substantive
copyright law, irrespective of the number of lawsuits
into which Fischer segmented his claims. Judge Peck
found that Brushy's vendors' infringement was part of
the series of infringing acts performed or assisted by
Brushy that had commenced on December 10, 2010 before Fischer registered his copyright, and, relying primarily on Bouchat v. Bon-Ton Dep’t Stores, Inc., 506
F.3d 3 15 (4th Cir. 2007), held that the fact that this
series of infringing acts predated Fischer's registration of the copyright, barred an award of statutory
damages against Brushy for its contributory infringement. R&R 2 at 30.8
Fischer's objection does not engage with this
critique. He focuses on the fact that he bifurcated his
————————
Like this case, Bouchat involved multiple lawsuits: one against
the Baltimore Ravens and National Football League Properties,
and four against "several hundred companies (licensees)."
Bouchat, 506 F.3d at 324, Id. at 330 ("NFLP's battalion of licensees—not NFLP itself—are the defendants in the cases before us
today . . . . Bouchat argues that the correct approach would have
been to treat the date on which each individual licensee first violated Bouchat's copyright as the date that licensee's infringement
commenced under § 4l2(l ). We disagree.").
8

59A

claims into separate lawsuits. He does not, however,
respond to the Report's substantive explanation why
Brushy does not owe statutory damages. He does not,
for example, take issue with the doctrine that disentitles a copyright owner to statutory damages where a
series of related infringements began before the owner
registered a copyright, or with the Report's conclusion
that the vendors' acts of infringement fomled part of a
series with Brushy’s.
Because Fischer has not made a specific objection to the Magistrate Judge's findings, Fischer's objection does not trigger de novo review. Pinknew v.
Progressive Home Health Servs., No. 06 CIV.5023
(LTS) (JCF), 2008 WL 281 1816, at *1 (S.D.N.Y. July
21, 2008), aff’d, 367 F. App’x 210 (2d Cir. 2010) (citing
United States v. Male Juvenile, 121 F.3d 34, 38 (2d Cir.
I 997)). Applying that standard, the Court has reviewed the Report's findings on secondary liability for
clear error and has found none. For avoidance of
doubt, however, even had de novo review been warranted, the Court would find no error in Judge Peck's
articulation of why statutory damages are unavailable
based on Brushy°s facilitation of its vendors infringement of Fischer’s copyrights. The Court therefore
adopts Judge Peck's recommendation on this point,
too.

60A
C. Fischer’s Claim Under the DMCA
Fischer next objects to the Report's recommendation that this Court grant summary judgment to Defendants on Fischer's claims under the DMCA, 17
U.S.C. § 1202. Obj. at 6-8. Fischer argues that Brushy
removed CMI in violation of § 1202 when, in revising
its online and print advertisements from promoting
Bee-Quick to promoting Natural Honey Harvester, it
substituted, in a sentence, the term "Natural Iloney
Harvester" for the term "Fischer's Bee-Quick." Id., Pl.
Br. 17-19. It is undisputed that Defendants made this
substitution. However, on de novo review, the Court
finds, with the Report, that this activity did not constitute CMI removal as a matter of law. The Court
therefore adopts the Report's recommendation as to
the DMCA claims.
1. Applicable Standards Under the
DMCA
Section 1202 prohibits, inter alia, "intentionally
remov[ing] . . . any copyright management illfolmation" with the knowledge (or with reasonable grounds
to know) that doing so will "induce, enable, facilitate,
or conceal" an infringement of copyright." 17 U.S.C. §
l202(b). To prevail on a claim for CMI removal, a plaintiff must show "(l) the existence of CMI on the [work
at issue], (2) removal and/or alteration of that information; and (3) that the removal and/or alteration was

61A
done intentionally." BanxCorp v. Coslco Wholesale
Corp., 723 F. Supp. 2d 596, 609 (S.D.N.Y. 2010).
As relevant here, CMI includes the name of the
author or copyright owner. See id.; 12 U.S.C. § 1202(c).
CMI can be "contained in the body of a work," see
Bounce Exch., Inc. v. Zeus Enter. Ltd., No. 15CV3268
(DLC), 2015 WL 8579023, at *3 (S.D.N.Y. Dec. 9,
2015), and need not exactly match the name of the copyright owner, see id. (a "shorthand form of the official
name of the author of the work" can constitute CMI).
In light of the above, Fischer is correct that the word
"Fischer's"—a part of the term that Defendants substituted out of Fischer's advertisements—is capable of
constituting CMI. See Agence France Presse v. Morel,
769 F. Supp. 2d 295, 305 (S.D.N.Y. 2011) ("It is implausible that a viewer of Morel's photos would not understand the designations 'Morel' and 'byphotomorel'
appearing next to the images to refer to authorship.").
But, to qualify, the word or words said to constitute CMI must also be "conveyed in connection with
copies . . . of a work . . . or displays of a work . . . . 51
17 U.S.C. § 1202(c)(2). The CMI must be attached to,
depicted in, or broadly "conveyed in connection" with
a copyrighted or copyrightable "work." The works on
which CMI removal claims are based commonly consist of photographs, see, e.g., Playboy Enterprises Int’l
Inc., 2016 WL 1023321, at *4, but CMI removal actions can lie from the removal of such information

62A
from other works, see, e.g., BanxCorp, 723 F. Supp. 2d
at 609 (citing cases with CMI claims based on architectural plans, news articles, and drawings). And although a "plaintiff's failure to register its copyrighted
work is not a bar to a DMCA action," Playboy Enterprises Intl Inc., 2016 WL 1023321, at *5 (quoting
I.M.S. Inquiry Mgmt. Sys., Ltd. v. Berkshire Info. Sys.,
Inc., 307 F. Supp. $d 521, 531 n.9 (S.D.N.Y. 2004)),
"[a]n action for removal of copyright management information requires the information to be removed
from a plaintiff's product or original work," Faulkner
Press, L.L.C. v. Class Notes, L.L.C., 756 F. Supp. $d
1352, 1359 (ND. Fla. 2010) (citing Schfffér Publ’g, Ltd.
v. Chronicle Books, LLC, Civil Action No. 03-4962,
2004 WL 2583817, at *14 (E.D. Pa. Nov. 12, 2004) and
Kelly v. Arriba Soft Corp., 77 F. Supp. 2d 1116, 1122
(CD. Cal. 1999) aff’d and rev’d in part on other
grounds, 336 F.3d 8] l (9th Cir. 2003)).9
——————————
9 Brushy argues that "§ 1202('b) 'prohibits the removal or alteration of “copyright management information" from a validly copyrighted work,” rather than a merely copyrightable one, Def. Reply
Mem. at 7 (emphasis in original) (citing Silver v. Lavandeira, No.
08 Civ. 6522 (JSR), 2009 WL 513031, at *2 (S.D.N.Y. Feb. 26,
2009)), but courts in this district have persuasively held that CMI
is not so limited. See Playboy Enterprises Int'l Inc., 2016 WL
1023321 , at *5.

63A
2. Discussion
Although Fischer has oscillated in his theories
under the DMCA, see supra, note 3, the Court, drawing on Fischer’s various filings, has identified four
items that could serve as an original "work" of Fischer's from which Brushy allegedly removed CMI: (1) the
website and/or brochure Fischer submitted in conjunction with his copyright registration, (2) the "description text" Fischer sent to Brushy, (3) the four copyrighted phrases used in the allegedly offending advertisement, and (4) the phrase to which "Fischer's" is attached in the advertisement altered by Brushy:
"Fischer's Bee-Quick is a safe, gentle, and pleasant
way to harvest your honey." The Court considers these
in turn.
a.

Fischer’s

Brochure

and

Website
Fischer testified in his deposition that Brushy
removed four sentences from his brochure, Fischer
Dep. at 137. Fischer further attested in his affidavit
opposing summary judgment that the epigrams relating to his product could also be "found on various web
pages." Fischer Arr. at 4. However, even assuming
that Fischer's brochure and website are "works" covered by the DMCA, the Report correctly found that
Fischer cannot maintain a claim based on removal of
CMI from either source. That is because no CMI was

64A
removed from his original brochure, his website, or a
copy or display of them.
Aside from the four phrases noted above,
Brushy's advertisement bears no resemblance whatsoever to Fischer's brochure or website. In those cases
where claims of removal of CMI have been held viable,
the underlying work has been substantially or entirely
reproduced. See, e.g., Bounce Exch., 2015 WL 8579023,
at *2-4 (CMI removal claim viable where defendants
removed "shorthand forms" of plaintiff’s name from
plaintiff’s source code and inserted "portions of [plaintiffs] code, structure, sequence, and organization" into
its defendants' own code such that the "[defendant]
was selling software source code that was 'substantially similar' to [plaintiff’s] proprietary code"), Associated Press v. All Headline News Corp., 608 F. Supp. 2d
454, 458, 461 (S.D.N.Y. 2009) (CMI removal claim viable where defendants "instructed reporters to remove
or alter the identification of the [Associated Press] as
author or copyright holder of the articles"). This requirement accords with the DMCA text that requires
CMI to be "conveyed in connection with copies . . . of a
work . . . or displays of a work." 17 U.S.C. § 1202(c).
Fischer's brochure and website are not, however, copied here. Aside from four discrete phrases among the
many used on Fischer's brochure and website, there is
no similarity between Fischer's original works and
B1'ushy's advertisement. Brushy cannot be said to
have removed CMI from these of Fischer's "works.”

65A
b. Fischer’s “Description Text”
The "description text" that Fischer sent Brushy
could, in theory, constitute a "work" under the DMCA,
because, as noted, the material at issue in a DMCA
claim need not be a subject of a registered copyright.
Playboy Enterprises Int’l Inc., 2016 WL 1023321, at *5.
But Fischer has not shown that Brushy removed CMI
from this text, because, at the summary judgment
stage, he did not adduce evidence of the content of the
"description text" he had sent Brushy.10 See Pl. Br. at
17-19, Dkt. 180 ("Michelen Aff."). Fischer's complaints
alleged that the images and description text he sent to
Brushy "consist[ed] of images of brochures, flyers
other sales materials,” all of which were "derivative
works of Plaintiff's original creative unpublished copyrighted Works." TAC 04 ¶ 92. This description, and
——————————
Fischer attaches an exhibit (Exhibit G) to his objections in an
attempt to demonstrate that he authored one "work" claimed to
underlie Brushy's advertisement. Fischer comes forward with
this exhibit too late. See Tavares, 2011 WL 5877548, at *2. In any
event, the exhibit that Fischer produces to illustrate what he
claims to have authored for Defendants does not appear to be a
document that pre-existed this litigation. Instead, it is disembodied and presented in no recognizable context. It appears to be
Fischer's written version of the description text used by Defendants, circumscribed by an added black box. See Obj. Ex G at l.
10

66A
descriptions that Fischer furnished later in this litigation, do not suggest that Fischer sent Brushy a singular work, rather, they suggest multiple materials from
which Brushy was to construct its own advertisement.
See e.g., Fischer Aff. at 1 ("The difference between the
print catalog [text] and the website [text] prior to
2008, and the poor artistry in the line art sketch of the
Bee-Quick product as compared to those for other
products was the primary reason why I kept mailing
CDs to the Forrests each fall with camera-ready artwork, photos of the products, and point-of-sales materials) (emphasis added), see also TAC 07 ¶ 71 ("In all
of the above [versions of the online description text],
Defendants' had access to and full knowledge of Plaintiffs copyrighted Works, providing them the source
material with which to infringe."). Fischer also notes
that he and Defendants "would discuss changes to the
text . . . of Defendants' product webpage periodically."
Id. ¶ 70.
These accounts suggest that the work of Brushy
at issue here is an advertisement based upon an earlier advertisement which in turn drew upon various
materials Fischer sent Brushy. Fischer does not identify any case support that DMCA liability encompasses that sort of composite "work." See Faulkner
Press, 756 F. Supp. $d at 1359 ("[N]othi11g was removed from the copyrighted works. Instead, information from Dr. Moulton's courses was allegedly copied into a different form and then incorporated into the

67A
note packages."), Frost-Tsuji Architects v. Highway
Inn, Inc., No. CW. 13-00496 SOM, 2014 WL 5798282,
at *7 (D. Haw. Nov. 7, 2014) ("To the extent FrostTsuji is arguing that Kadowaki created 'shop drawings' based on Frost-Tsuji's work and left out FrostTsuji's copyright management information in the process, no actionable removal of copyright management
information is involved, as basing a drawing on another's work is not the same as removing copyright
management information."). Fischer's claim instead
sounds, if at all, in copyright infringement, but, for the
separate reasons noted in the Report relating to the
unavailability of the statutory damages that Fisher
elected, he cannot prevail on that claim.
c. Fischer’s Four Phrases
The four phrases originally relating to Fischer's
product that Brushy used in modified form in its advertisements are of a different character, but they, too,
cannot form the basis of a DMCA claim based on the
removal of CMI. CMI exists to inform the public that
a work is copyrighted and by whom. See Pers. Keepsakes, Inc. v. Personaliziationmall. com, Inc., No. 11CV-5177, 2012 WL 414803, at *6 (ND. Ill. Feb. 8, 2012)
("[T]he point of CMI is to inform the public that something is copyrighted and to prevent infringement.”)
The DMCA exists, in part, to protect that notice. Id.
The four phrases of Fischer's that Brushy modified and used, however, are not of such character.

68A
Only one even refers to Fischer. No reader would find
that the "Fischer's" as used in the phrase "Fischer's
Bee-Quick is a safe, gentle, and pleasant way to harvest your honey" speaks to copyright ownership. No
reader would find that this product descriptor signals
that a "James H. Fischer" or even someone named
"Fischer" is the copyright holder of the phrase to which
it is attached and those surrounding it. The sentence
instead advertises Fischer's product, and fairly conveys that Fischer is the owner and/or producer of that
product. But that phrase and the other three phrases
at issue-do no convey Fischer's authorship or copyright ownership of these expressions. Although Fischer's name is not part of the trademarked name of
Fischer's product, his name frequently appears alongside "Bee-Quick" in the product's marketing. See, e.g.,
SAC 04 Ex. 17.
An analogy illustrates the point. Imagine that
the back cover of the Ian Fleming novel Dr. No. contained the following encomium: "In Ian Fleming's Dr.
No, Fleming shows his mastery of Cold War spycraft."
Imagine then that a person lifted language from that
review to promote a different thriller, writing: "In
John Le Carré's Tinker, Tailor, Soldier, Spy, Le Carré
shows his mastery of Cold War spycraft." Whatever
the other legal implications of such conduct might be,
it is inconceivable that a DMCA claim would lie from
the elimination of Fleming's name. The expression at
issue does not connote Fleming's copyright ownership

69A
of anything, much less the language common to the
two book-promoting blurbs. Fischer's name-whose deletion Fischer's DMCA claim challenges-similarly has
no CMI relevance as used in Defendants' advertisement. It neither informs the reader that Fischer wrote
either the phrase to which "Fischer's" is attached or
the surrounding text. As the Report recognized,
Fischer cannot prevail on a DMCA claim based on the
claim that the modified ['our phrases are the "work"
from which CMI was removed.
d. “Fischer’s Bee-Quick
is a safe gentle and pleasant way to harvest your
honey.”
For the same reasons as above, Defendant's having
replaced the word "Fischer's" with "Natural Honey
Harvester" is not an act of CMI removal. "Fischer's"
has no CMI significance as used in the advertisement.11

——————————
Although Fischer objects to the Report's discussion of damages
under the DMCA, the Court, having found that no DMCA claim
validly lies, has no occasion to address those objections.
11

70A
D. Fischer's Lanham Act False Endorsement Claim
Fischer alleges that Defendants violated Section
43(a) of the Lanham Act by including his name in the
post-domain path of URLs that linked to Defendants'
Natural Honey Harvester. See TAC 04 ¶¶ 164-90.
Fischer's examples of this include:
•

"http://brushymountainbeefarm.com/FumePad-w_-Fischers-BeeQuick/prodcutinfo/777F," see SAC 04 Ex. 12;

•

"http://brushymountainbeefarm.com/8Frame-Fume-Pad-w_Fischers-BeeQuick/product info/254FPQ/," see id. Ex. 13;

•

http://brushymountainbeefarm.com/images/799fischers.jpg, see id. Ex 10;

•

http://brushymountainbeefarm.com//images/799fischerssm.jpg," see id.

The Report recommended that the Court grant summary judgment for Defendants on these claims, because Fischer has not shown a likelihood of confusion
from Defendant's ostensible false endorsement. See
R&R 2 at 45-50. Fischer objects that the Report
wrongly decided disputed issues of fact against him on
this point. The Court reviews this issue de novo.
1. Applicable Legal Standards

71A
To prevail on a false endorsement claim, a plaintiff
must prove that "the defendant, (1) made a false or
misleading representation of fact; (2) in commerce; (3)
in connection with goods or services; (4) that is likely
to cause consumer confusion as to the origin, sponsorship, or approval of the goods or services." Beastie Boys
v. Monster Energy Co., 66 F. Supp. 3d 424, 448
(S.D.N.Y. 2014) (quoting Burck v. Mars, Inc., 571 F.
Supp. 2d 446, 455 (S.D.N.Y. 2008)).
The first three of these factors are not in dispute.
Fischer's claim therefore turns on the fourth factor:
likelihood of confusion. Although this element ordinarily presents an issue of fact, consumer confusion can
become an issue of law where a "[p]laintiff ‘cannot possibly show confusion as to source or sponsorship.’”
Roberts v. Bliss, 229 F. Supp. 3d 240, 251 (S.D.N.Y.
2017) (quoting Pirone v. MacMillan, Inc., 894 F.2d
579, 585 (2d Cir. 1990)).
When determining likelihood of consumer confusion, this Circuit employs an eight-factor test set forth
in Polaroid Corp. v. Polarad Elecs. Corp., 287 F.2d 492
(2d Cir. 1961): "The eight factors are: (1) strength of
the trademark; (2) similarity of the marks; (3) proximity of the products and their competitiveness with one
another; (4) evidence that the senior user may 'bridge
the gap' by developing a product for sale in the market
of the alleged infringer's product, (5) evidence of actual
consumer confusion, (6) evidence that the imitative

72A
mark was adopted in bad faith; (7) respective quality
of the products; and (8) sophistication of consumers in
the relevant market." Starbucks Corp. v. Wolfe’s Borough Coffee, Inc., 588 F.3d 97, 115 (2d. Cir. 2009).
However, "[t]he application of the Polaroid test is 'not
mechanical, but rather, focuses on the ultimate question of whether, looking at the products in their totality, consumers are likely to be confused." Kelly-Brown
v. Winfrey, 717 F.3d 295, 307 (2d Cir. 2013) (quoting
Star Indus. Inc. v. Bacardi & Co Ltd., 412 F.3d 373,
384 (2d Cir. 2005)).
2. Discussion
For the reasons that follows, as a matter of law,
Fischer cannot establish, under the Polaroid factors, a
likelihood of consumer confusion.
At the outset, the Court finds, substantially for the
reasons given by Judge Peck, that Fischer meets or
appears to meet the first three factors. As to the first
factor, he has profitably marketed his product for a
number of years; as to the second and third, Defendants allegedly used Fischer's last name in URLs on
web pages marketing a competing product. The Court
further finds—as is common in false endorsement
cases—that factors four and seven are irrelevant to
the false endorsement claim at issue. See, e.g., Jackson
v. Odernat, 9 F. Supp. 3d 342, 356 (S.D.N.Y. 2014)
("Courts adjust the factors when dealing with false

73A
endorsement claims. In such cases, the quality of' the
products and 'bridging the gap' are often not considered.").
The Court's analysis therefore focuses on factors
five ("evidence of actual consumer confusion"), six ("evidence that the imitative mark was adopted in bad
faith"), and eight ("sophistication of the consumers in
the relevant market").
a. Evidence of Actual Consumer Confusion

Although "actual confusion need not be shown to
prevail under the Lanham Act, since actual confusion
is very difficult to prove and the Act requires only a
likelihood of confusion as to source," Beastie Boys, 66
F. Supp. 3d at 456 (quoting Lois Sportswear, U.S.A.,
Inc. v. Levi Strauss & Co., 799 F.2d 867, 875 (2d Cir.
1986)), "it is certainly proper for the trial judge to infer
from the absence of actual confusion that there was
also no likelihood of confusion," Affiliated Hosp.
Prods., Inc. v. Merdel Game Mfg. Co., 513 F.2d 1183,
1188 (2d Cir. 1975).
Here, Fischer has failed to demonstrate any actual
consumer confusion. As ostensible proof of such confusion, Fischer relies on the following evidence: a single
review that he claims is from Brushy's website; an observation that Google displays Natural Honey Harvester when asked to search for Fischer's Bee-Quick;

74A
and the claim that the use of his name in certain of
Brushy's URLs constituted initial interest confusion.
The Court considers each item in turn.
As to the review: Fischer attached a single review
which he claims he drew from Brushy's website. It
states that an earlier shipment of a product was not
as good as a later shipment. See Fischer Aff. Ex. B
("The first bottle I bought last year worked well but
this new stuff was a complete waste of time and
money."). Fischer asks the Court to infer that the customer was referring to Fischer's Bee-Quick in the first
instance and Natural Honey Harvester in the second.
This, however, is speculation: Fischer apparently did
not develop and has not provided any evidence to the
effect that either product to which the review refers is
Bee-Quick.12

—————————
Although not necessary to the Court's ruling, Gebauer's supplemental affidavit states that the review was posted on May 7,
2013, long after Brushy discontinued selling Fischer's products.
12

75A
As to Google: Fischer alleges that search engines
like Google would route customers to Natural Honey
Harvester because Fischer's name appeared in the
post-domain path in certain Brushy URLs. TAC 04 ¶
175. But Fischer's evidence does not demonstrate that
a purchaser is, in fact, led to Brushy's website by virtue of the URL containing Fischer's name. Rather,
Fischer's evidence, as he describes it, reflects only
that:
"Google results for [Fischer bee] . . . cite Plaintiff’s products and services in 9 of first 10 results, 17 of first 20, and 21 of first 30 results.
[Beekeeping Fischer] cites Plaintiff and his
products in 8 of the 1st 10, 16 of the 1st 20, and
22 of the 1st 30 results. [Jim Fischer bee] cites
Plaintiff and his products in 37 of the first 40
results."
Fischer Arr. at 9-10. This evidence does not show actual confusion. Indeed, far from showing that customers were led astray, Fischer's Google evidence appears
to indicate the opposite, that is, that his own product
overwhelmingly appears when his name is searched.
As important, this evidence does not show that Natural Honey Harvester appears instead—it does not indicate that the few search results for sites other than
Fischer's product are for Brushy's website. Fischer's
evidence further fails to show that, to the limited extent that non-Fischer websites came up as a result of

76A
the Google search, these websites presented as a result of the inclusion of his name in Brushy's post-domain URL.13
As to "initial interest" confusion: Although Fischer
only obliquely mentioned this item in opposing summary judgment, he alleged in his Complaint that
Brushy sought to create "initial interest" confusion by
including Fischer's name in the URL for Natural
Honey Harvester, and he returns to this point in his
objections to the Report. Obj. at 12 ("the initial diversion . . . is the 'actual confusion' here."). Initial interest
confusion "arises when a consumer who searches for
the plaintiff's website with the aid of a search engine
is directed instead to the defendant's site because of a
similarity in the parties' website addresses." Savin
——————
In his objections, Fischer states that he "submitted an affidavit
detailing how his name in the URL brought the offending page
up in Google searches," citing to Fischer Dep. at 212-13. Obj. at
11. The cited deposition, however, does not establish that point,
but merely recounts that Fischer has so alleged.
13

77A
Corp. v. Savin Grp., 391 F.3d 439, 462 n.13 (2d Cir.
2004). "Because consumers diverted on the Internet
can more readily get back on track than those in actual
space, thus minimizing the harm to the owner of the
searched- for site from consumers becoming trapped
in a competing site, Internet initial interest confusion
requires a showing of intentional deception." Id. But,
for the reasons recounted above, Fischer's claim of initial interest confusion is factually threadbare. He has
not come forward with any evidence that consumers
were diverted to Brushy's website when searching for
Fischer's product online, let alone that such diversion
resulted from the inclusion of Fischer's name in the
post- domain path of the URL.
Fischer thus has not demonstrated any actual confusion.
b. Evidence That the Imitative Mark Was
Adopted in Bad Faith
Fischer argues that Brushy's use of Fischer's name
in the post-domain URL was adopted in bad faith because "continuing use of a mark knowing that it is
wrongful" demonstrates bad faith. Obj. at 11 (quoting
First Savings Bank, F.S.B . v. U S Bancorp, 117 F.
Supp. 2d 1078, 1088 (D. Kan. 2000)). But Fischer has
not substantiated his claim that the inclusion of his
name in the post-domain URL was done knowingly.
There is no evidence direct or circumstantial—

78A
whether in the form of testimony, emails and other
records, or conduct—so indicating. On the contrary,
Gebauer has explained this circumstance as follows:
When Brushy Mountain switched from the BeeQuick to the Natural Honey Harvester product,
the ad created by Brushy Mountain for the BeeQuick product was changed, but the URL was
mistakenly not changed. Once I learned the
URLs contained the words 'Fischers' and 'Fischer's Bee-Quick' I had the URLs changed.
Gebauer Decl. ¶ 9. In his deposition, Fischer gave testimony consistent with this benign explanation. See
Fischer Dep. at 153 ("Q: [D]id Brushy Mountain, on
their website, use the same URL that they sold BeeQuick as they did when they switched over and started
selling Natural Honey Harvester? A: Yes. They continued to use the same URL.").
With the evidence indicating that Brushy's initial
maintenance of the earlier URL was an inadvertent
error, Fischer is forced to argue that Brushy's failure
to remove his name from the URL's was an act of bad
faith. But the evidence Fischer adduces does not bear
this out.
First, Fischer claims that, based on his "read[ing]
the manuals, stud[ying] the training videos, and
sp[eaking] with tech staff at Dyacomp," the software

79A
used by Gebauer does not now operate as Gebauer
claims it does. Fischer Arr. at 8. Fischer's lay conclusion to this effect does not suffice to substantiate this
claim as to the operation of his competitor's software.
He has not, for example, deposed a Dyacomp employee
or, for that matter, come forward with documentary or
testimonial evidence that the website functions other
than as Gebauer has stated.
Second, Fischer notes that Brushy's website retains
two links, archived in its web server, that contain
Fischer's name. Pl. Obj. Reply at 7. At argument before Judge Peck, however, Brushy's lawyer emphasized that the links do not appear on any page advertising Defendants' products, and explained that the
two links were not removed from the website archives
out of a concern that such removal "could be perceived
as spoliation of evidence." R&R 2 at 46 n.30. Fischer
has not come forward with contrary evidence as to the
operation of, or the reason for the retention of, these
two links.
These slender threads are insufficient to establish
this important Polaroid factor. "[T]o show bad faith, a
plaintiff must show that the defendant intended to
create confusion between the products or marks at issue." Crye Precision LLC v. Duro Textiles, LLC, 689 F.
App'x 104, 108 (2d Cir. 2017). Fischer, however, has
not shown any action by Defendants undertaken with
intent to confuse.

80A
c. Sophistication of the Consumers
Fischer argues that "the sophistication of the consumer here actually makes it more likely that they
were confused as they would know that Fischer's
name was synonymous with quality bee-keeping products." Pl. Br. at 21. However, Judge Peck persuasively
refuted that argument, emphasizing the context in
which Fischer's name appears on Defendants' website:
"Whether defined as the typical consumer of beekeeping products, or Internet users writ large, no ordinary
consumer is likely to see Fischer's name in the postdomain path of the URL and wonder if that signified
his endorsement of a completely different product in
the accompanying web page.” R&R 2 at 49 n.34. This
factor, too, as Judge Peck found, does not assist
Fischer.
d. Other Considerations and Overall Assessment
The Court considers two other aspects of Judge
Peck's analysis with which Fischer takes issue.
First, Fischer objects that the Report, in analyzing
the likelihood of consumer confusion, cited a case that
dealt with "domain squatting," a situation not present
here. Obj. at 10 (citing R&R 2 at 46). But Judge Peck's
Report cited Interactive Products Corp. v. a2z Mobile
Office Sols., Inc., 326 F.3d 687, 692 (6th Cir. 2004), not

81A
as controlling precedent but because that case "provide[es] a helpful discussion of the mechanics of website URLs," R&R 2 at 48 n.32; that decision, however,
as Judge Peck emphasized, "d[id] not guide the [Report’s] consumer confusion analysis," id. And, on its
review, the Court agrees that Interactive Products
Corp. is useful as a guide to the concept of post-domain
paths. The Sixth Circuit helpfully explained that
while trademark names used in domain names often
give rise to trademark infringement claims because
domain names "usually signify source," post-domain
paths usually do not do so. 326 F.3 at 696-97. As the
Sixth Circuit explained: "Typically, webpages containing post-domain paths are not reached by entering the
full URL into a browser; instead, these secondary
pages are usually reached via a link from the website's
homepage, which does not contain a post-domain
path." Id. at 697. "A post-domain path . . . merely
shows how a website's data is organized within the
host computer's files." Id. at 691. The Sixth Circuit's
discussion reasonably informed Judge Peck's assessment that, in considering the likelihood of consumer
confusion, it is important to distinguish between a domain name and a post-domain path.
To be sure, that a competitor's trademark was situated in a post-domain path does not preclude a finding
of likely confusion. See, e.g., H-D U.S.A., LLC v. Sur
Frog, LLC, No. 17-CV-711-JPS, 2017 WL 3261709, at
*4-5 (E.D. Wis. July 31, 2017) (issuing preliminary

82A
injunction based in part on evidence that placement of
a trademark in a post-domain path was done with intent to confuse and that the post-domain path led to a
website selling counterfeit products). But Judge Peck
did not hold otherwise, and, for the reasons noted
above, the factors yielding the finding of likely confusion in H-D U.S.A., are not present here.
Second, Fischer objects that, in the likelihood of
confusion inquiry, the continued use of a mark after
the termination of a licensing agreement should be a
factor in his favor. Obj. at 11. Courts in this district
have indeed held that "'[w]hen an ex-licensee continues to use a mark after its license expires, likelihood
of confusion is established as a matter of law."' Microbe Prod Co. v. API Indus., Inc., No. 14 CIV. 41 KPF,
2014 WL 1856471, at *6 (S.D.N.Y. May 8, 2014) (quoting L & L Wings, Inc. v. Marco-Destin, Inc., 676 F.
Supp. 2d 179, 188 (S.D.N.Y. 2009)). Here, however, as
Judge Peck recognized, Brushy has not used Fischer's
name as a mark. Fischer does not, for example, allege—let alone establish—that, after termination of
its license, Brushy continued to sell its products with
Fischer's logo attached to them or to use Fischer's
name in the domain name of its website. Fischer's
claim instead is that consumers are likely to be confused as to whether he sponsors or endorses Natural
Honey Harvester merely because his name appears in
the post-domain path of some of Brushy's URLs. The
cases on which Fischer relies, applying a per se rule to

83A
use of a mark by former licensees, are not applicable
to this circumstance, in which the fact-intensive Polaroid test properly applies. See Kelly-Brown,717 F.3d
at 307.
In the end, the decisive question is whether, "looking at the [marks] in their totality, consumers are
likely to be confused." Starbucks Corp., 588 F.3d at
115 (internal quotation omitted). "Likelihood of confusion means a probability of confusion, it is not sufficient if confusion is merely possible." Estee Lauder Inc.
v. The Gap, Inc., 108 F.3d 1503, 1510 (2d Cir. 1997)
(quotations omitted). Here, although there are factors
that favor Fischer, those the Court finds most decisive
disfavor Fischer's claim. He has not shown actual confusion or bad faith. And the sole use of his name is not
as a mark. Fischer's name is instead tucked away in
the post-domain path of Brushy's URL. The Court concludes, with Judge Peck, that, as a matter of law,
Fischer "'cannot possibly show confusion as to source
or sponsorship.” Roberts, 229 F. Supp. 3d at 251 (quoting Pirone, 894 F.2d at 585). On the evidence adduced,
consumers are not at all likely to be confused as to
whether Fischer endorses or sponsors Natural Honey
Harvester based on the fact that his name appears in
the post-domain path of Brushy's URLs. The Court
therefore agrees that Brushy's motions for summary
judgment on Fischer's false endorsement claims are
property granted.

84A

E. Fischer's Unfair Competition Claim Under New York Law
Fischer next objects to the Report's recommendation that the Court grant summary judgment in favor
of Brushy on Fischer's common law unfair competition
claim, brought under New York law. Obj. at 10-12.
Fischer argues that, in so recommending, Judge Peck
improperly resolved an issue of fact as to whether
there was actual confusion. Id.
The Court's discussion above controls as to this
point. The elements of an unfair competition claim under New York law are identical to the elements of an
unfair competition claim under the Lanham Act, save
that the plaintiff must also show "bad faith by the infringing party.” Int’l Diamond Importers, Inc. v. Oriental Gemco (N.Y.), Inc., 64 F. Supp. 3d 494, 514
(S.D.N.Y. 2014) (quoting Perfect Pearl Co. v. Majestic
Pearl & Stone, Inc., 887 F. Supp. 2d 519, 541 (S.D.N.Y.
2012)). Here, for the reasons above, Fischer has not
made out a viable Lanham Act claim, and has not adduced evidence sufficient to support a finding of bad
faith on Brushy's part. Brushy's summary judgment
motion on this claim is, therefore, granted.

85A
G. Fischer's False Advertising Claims
"To prevail on a Lanham Act false advertising
claim, a plaintiff must establish that the challenged
message is (1) either literally or impliedly false, (2)
material, (3) placed in interstate commerce, and (4)
the cause of actual or likely injury to the plaintiff."
Church & Dwight Co. v. SPD Swiss Precision Diagnostics, GmBH, 843 F.3d 48, 65 (2d Cir. 2016).

Here, Fischer brings two false advertising claims
under the Lanham Act. The first alleges that Brushy's
description of Natural Honey Harvester as "100% Natural" is false. TAC 04 ¶¶ 210(a), 211, see Pl. Br. at 26.
The second alleges that Brushy's statement that it
"c[a]me out with [its] own" product (i.e., Natural
Honey Harvester) is false because Brushy purchases
Natural Honey Harvester from a third party. TAC
¶¶210(d), 211; see Pl. Br. at 26. The Court addresses
these in turn.

1. "100% Natural"
Brushy describes Natural Honey Harvester as
"100% Natural" in its online and print advertisements. Fischer alleged that this claim is false insofar
as Natural Honey Harvest is not, in fact, "l00%

86A
Natural." Fischer does not, however, object to the Report's recommendation that this Court grant summary judgment for Defendants on this claim. The
Court, finding no clear error, adopts the Report's recommendation.
2. "Come out with our own"
In its advertisement for Natural Honey Harvester,
Brushy states: "For years we have promoted the use of
a natural product to harvest honey but an unreliable
supply of such a product has forced us to come out with
our own." See SAC 04 Ex. 8.14 Fischer argues that "our
own" is false because Brushy purchases the product it
sells from a third-party. Pl. Br. at 22. The Report recommended that the Court grant summary judgment
for Defendants because the operative term, "our own,"
is neither literally nor impliedly false. R&R 2 at 54-58.
—————
In his objections, Fischer alternatively styles Brushy's offending phrase as" We made our own" and "We came out with our
own." Obj. at 2, 12. In fact, both as alleged by Fischer and as reflected in Brushy's advertisement, the phrase used is "forced us
to come out with our own. See TAC 04 WI2l0(d); SAC 04 Ex. 8.
14

87A
Fischer objects that this was an issue of fact not appropriately resolved by a court. Obi. at 12. The Court
reviews this issue de novo. For the reasons that follow,
the Court agrees with Judge Peck that summary judgment is properly granted for Defendants because the
evidence does not show literal or implied falsity.
a. Literal Falsity
"To establish literal falsity, a plaintiff must show
that the advertisement either makes an express statement that is false or a statement that is 'false by necessary implication,' meaning that the advertisement's
'words or images, considered in context, necessarily
and unambiguously imply a false message.’” Church &
Dwight Co., 843 F.3d at 65 (quoting Time Warner Cable, Inc. v. DIRECTV, Inc., 497 F.3d 144, 158 (2d Cir.
2007)). A message can only be literally false if it is unambiguous. Id.
Here, the Court finds that the statement "come out
with our own" is not literally false because it is not unambiguous. See Apotex Inc. v. Acorda Therapeutics,
Inc., 823 F.3d 51, 63 (2d Cir. 2016)("[O]nly an unambiguous message can be literally false.” (quoting Time
Warner Cable, 843 F.3d at 153) (emphasis in original)). The phrase does not unavoidably signify that the
product offered by Brushy was created in the first instance by Brushy. Indeed, Fischer's allegations in his
complaint, which assign alternative interpretations to

88A
this phrase, underscore its uncertain meaning. See
TAC 04 ¶ 2l0(d) ("The claim 'has forced us to come out
with our own' implies that they are somehow making
the same product, or have taken over the manufacturing of Plaintiff"s product, and/or that their product is
related to, approved by, endorsed by, licensed, or authorized by Plaintiff."); see also Classic Liquor Importers, Led. v. Spirits Int’l B. V., 201 F. Supp. 3d 428, 453
(S.D.N.Y. 2016) (plaintiff’s own admission that the
term "Since l 867" could have different meanings
demonstrated term's ambiguity); Time Warner Cable,
Inc., 497 F.3d at 158 ("[I]f the language or graphic is
susceptible to more than one reasonable interpretation, the advertisement cannot be literally false.").15
———————
The formulation used by the Second Circuit in Time Warner
Cable can be read to suggest that a statement cannot be literally
false if its meaning is ambiguous, even if each alternative meaning of the statement is itself false. See Classic Liquor Importers,
201 F. Supp. $d at 453 n.27 ("One could argue that, despite the
Second Circuit's seemingly clear mandate that a message be 'unambiguous' to be deemed literally false, it would be illogical to
require extrinsic evidence of consumer deception if it were the
case that each possible message conveyed by an ambiguous statement was indisputably false."). This Court has no occasion to consider that circumstance here, because the expression at issue-"came out with our own"-issues susceptible to at least one truthful construction: that Natural Honey Harvester replaced BeeQuick. Fischer's Complaint recognizes as much. See TAC 04
1121l(e). To be sure, Fischer disputes that Brushy's Natural
15

89A
b. Implied Falsity

Where a message is not literally false, a plaintiff
may nonetheless demonstrate that it is impliedly false
where the message leaves "an impression on the listener or viewer that conflicts with reality. Church &
Dwight Co., 843 F.3d at 65 (quoting Time Warner Cable, 497 F.3d at 153). However, "courts have, at times,
required a claim of implied falsity to be supported by
extrinsic evidence of consumer confusion." Id. "Alternatively, courts have allowed implied falsity to be supported by evidence that the defendant intended to deceive the public through 'deliberate conduct' of an
'egregious nature,' in which case a rebuttable presumption of consumer confusion arises.” Id. (quoting
Merck Eprova AG v. Gnosis S.p.A. 760 F.3d 247, 25556 (2d Cir. 2104)).
—————————
Honey Harvester is equivalent to his Bee-Quick. But, whether or
not Brushy's is an inferior product, it is undisputed that Natural
Honey Harvester replaced Bee-Quick as the product marketed
by Brushy.

90A
Here, as reviewed above, Fischer has not come forward with any credible evidence of consumer confusion. He therefore cannot establish implied falsity by
that route. Nor has he adduced any evidence that
Brushy's behavior in advertising its product with the
term "come out with our own" was in any sense deliberately deceptive and "egregious." Fischer has therefore failed to add adduce evidence establishing, on the
first element of actual or implied falsity,
a genuine issue for trial. See Aslanidis v. US. Lines,
Inc., 7 F.3d 1067, 1072 (2d Cir. 1993). The Court therefore grants Brushy's motions for summary judgment
on this point.
H. Remainder of the Report
The Court has reviewed the remaining portions of
the Report, as to which Fischer did not file any objections. The Court finds no clear error and adopts Judge
Peck's recommendations in full.
CONCLUSION
For the foregoing reasons, the Court grants
Brushy's motions for summary judgment. The Clerk of
Court is respectfully directed to close the motions
pending at 14 Civ. 1304, Dkt. 170, and 14 Civ. 1307,
Dkt. 172, and to close this case.

91A
SO ORDERED.
[signature]
Paul A. Engelmayer
United States District Judge
Dated: February 16, 2018
New York, New York

92A
APPENDIX E:
RELEVANT STATUTORY PROVISIONS

17 U.S.C. § 401. Notice of copyright: Visually
perceptible copies
(a) General provisions. Whenever a work protected
under this title is published in the United States or
elsewhere by authority of the copyright owner, a notice
of copyright as provided by this section may be placed
on publicly distributed copies from which the work can
be visually perceived, either directly or with the aid of
a machine or device.
(b) Form of notice. If a notice appears on the copies,
it shall consist of the following three elements:
(1) the symbol © (the letter C in a circle), or the
word “Copyright”, or the abbreviation “Copr.”; and
(2) the year of first publication of the work; in the
case of compilations or derivative works
incorporating previously published material, the
year date of first publication of the compilation or
derivative work is sufficient. The year date may be
omitted where a pictorial, graphic, or sculptural
work, with accompanying text matter, if any, is
reproduced in or on greeting cards, postcards,

93A
stationery, jewelry, dolls, toys, or any useful
articles; and
(3) the name of the owner of copyright in the work,
or an abbreviation by which the name can be
recognized, or a generally known alternative
designation of the owner.
(c) Position of notice. The notice shall be affixed to
the copies in such manner and location as to give
reasonable notice of the claim of copyright. The
Register of Copyrights shall prescribe by regulation,
as examples, specific methods of affixation and
positions of the notice on various types of works that
will satisfy this requirement, but these specifications
shall not be considered exhaustive.
(d) Evidentiary weight of notice. If a notice of
copyright in the form and position specified by this
section appears on the published copy or copies to
which a defendant in a copyright infringement suit
had access, then no weight shall be given to such a
defendant’s interposition of a defense based on
innocent infringement in mitigation of actual or
statutory damages, except as provided in the last
sentence of section 504(c)(2).

94A
17 U.S.C. § 402. Notice of copyright:
Phonorecords of sound recordings
(a) General provisions. Whenever a sound recording protected under this title is published in the
United States or elsewhere by authority of the copyright owner, a notice of copyright as provided by this
section may be placed on publicly distributed
phonorecords of the sound recording.
(b) Form of notice. If a notice appears on the
phonorecords, it shall consist of the following three elements:
(1) the symbol (P) (the letter P in a circle); and
(2) the year of first publication of the sound recording; and
(3) the name of the owner of copyright in the sound
recording, or an abbreviation by which the name
can be recognized, or a generally known alternative
designation of the owner; if the producer of the
sound recording is named on the phonorecord labels or containers, and if no other name appears in
conjunction with the notice, the producer’s name
shall be considered a part of the notice.
(c) Position of notice. The notice shall be placed on
the surface of the phonorecord, or on the phonorecord

95A
label or container, in such manner and location as to
give reasonable notice of the claim of copyright.
(d) Evidentiary weight of notice. If a notice of copyright in the form and position specified by this section
appears on the published phonorecord or
phonorecords to which a defendant in a copyright infringement suit had access, then no weight shall be
given to such a defendant’s interposition of a defense
based on innocent infringement in mitigation of actual
or statutory damages, except as provided in the last
sentence of section 504(c)(2).

96A
17 U.S.C. § 1202. Integrity of copyright
management information
(a)
False
copyright
management
information. No person shall knowingly and with
the intent to induce, enable, facilitate, or conceal
infringement—
(1) provide copyright management information
that is false, or
(2) distribute or import for distribution copyright
management information that is false.
(b) Removal or alteration of copyright
management information. No person shall,
without the authority of the copyright owner or the
law—
(1) intentionally remove or alter any copyright
management information,
(2) distribute or import for distribution copyright
management information knowing that the
copyright management information has been
removed or altered without authority of the
copyright owner or the law, or
(3) distribute, import for distribution, or publicly
perform works, copies of works, or phonorecords,
knowing that copyright management information

97A
has been removed or altered without authority of
the copyright owner or the law,
knowing, or, with respect to civil remedies under
section 1203, having reasonable grounds to know,
that it will induce, enable, facilitate, or conceal an
infringement of any right under this title.
(c) Definition. As used in this section, the term
“copyright management information” means any of
the following information conveyed in connection with
copies or phonorecords of a work or performances or
displays of a work, including in digital form, except
that such term does not include any personally
identifying information about a user of a work or of a
copy, phonorecord, performance, or display of a work:
(1) The title and other information identifying the
work, including the information set forth on a
notice of copyright.
(2) The name of, and other identifying information
about, the author of a work.
(3) The name of, and other identifying information
about, the copyright owner of the work, including
the information set forth in a notice of copyright.
(4) With the exception of public performances of
works by radio and television broadcast stations,
the name of, and other identifying information

98A
about, a performer whose performance is fixed in a
work other than an audiovisual work.
(5) With the exception of public performances of
works by radio and television broadcast stations, in
the case of an audiovisual work, the name of, and
other identifying information about, a writer,
performer, or director who is credited in the
audiovisual work.
(6) Terms and conditions for use of the work.
(7) Identifying numbers or symbols referring to
such information or links to such information.
(8) Such other information as the Register of
Copyrights may prescribe by regulation, except
that the Register of Copyrights may not require the
provision of any information concerning the user of
a copyrighted work.
(d) Law enforcement, intelligence, and other
government activities. This section does not
prohibit any lawfully authorized investigative,
protective, information security, or intelligence
activity of an officer, agent, or employee of the United
States, a State, or a political subdivision of a State, or
a person acting pursuant to a contract with the United
States, a State, or a political subdivision of a State. For
purposes of this subsection, the term “information
security” means activities carried out in order to

99A
identify and address the vulnerabilities of a
government computer, computer system, or computer
network.
(e) Limitations on liability.
(1) Analog transmissions. In the case of an analog
transmission, a person who is making
transmissions in its capacity as a broadcast
station, or as a cable system, or someone who
provides programming to such station or system,
shall not be liable for a violation of subsection (b)
if—
(A) avoiding the activity that constitutes such
violation is not technically feasible or would
create an undue financial hardship on such
person; and
(B) such person did not intend, by engaging in
such activity, to induce, enable, facilitate, or
conceal infringement of a right under this title.
(2) Digital transmissions.
(A) If a digital transmission standard for the
placement
of
copyright
management
information for a category of works is set in a
voluntary, consensus standard-setting process
involving a representative cross-section of
broadcast stations or cable systems and

100A
copyright owners of a category of works that are
intended for public performance by such
stations or systems, a person identified in
paragraph (1) shall not be liable for a violation
of subsection (b) with respect to the particular
copyright management information addressed
by such standard if—
(i) the placement of such information by
someone other than such person is not in
accordance with such standard; and
(ii) the activity that constitutes such
violation is not intended to induce, enable,
facilitate, or conceal infringement of a right
under this title.
(B) Until a digital transmission standard has
been set pursuant to subparagraph (A) with
respect to the placement of copyright
management information for a category of
works, a person identified in paragraph (1)
shall not be liable for a violation of subsection
(b) with respect to such copyright management
information, if the activity that constitutes such
violation is not intended to induce, enable,
facilitate, or conceal infringement of a right
under this title, and if—

101A
(i) the transmission of such information by
such person would result in a perceptible
visual or aural degradation of the digital
signal; or
(ii) the transmission of such information by
such person would conflict with—
(I) an applicable government regulation
relating to transmission of information in
a digital signal;
(II) an
applicable
industry-wide
standard relating to the transmission of
information in a digital signal that was
adopted by a voluntary consensus
standards body prior to the effective date
of this chapter; or
(III) an
applicable
industry-wide
standard relating to the transmission of
information in a digital signal that was
adopted in a voluntary, consensus
standards-setting process open to
participation by a representative crosssection of broadcast stations or cable
systems and copyright owners of a
category of works that are intended for
public performance by such stations or
systems.

102A
(3) Definitions. As used in this subsection—
(A) the term “broadcast station” has the
meaning given that term in section 3 of the
Communications Act of 1934; and
(B) the term “cable system” has the meaning
given that term in section 602 of the
Communications Act of 1934.

